<html>
<title> - [H.A.S.C. No. 113-78] UNITED STATES SECURITY POLICY AND DEFENSE POSTURE IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-78]

  UNITED STATES SECURITY POLICY AND DEFENSE POSTURE IN THE MIDDLE EAST

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 11, 2014


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE

  86-968                   WASHINGTON : 2014
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcbbacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>  




















                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MO BROOKS, Alabama                   SCOTT H. PETERS, California
RICHARD B. NUGENT, Florida           WILLIAM L. ENYART, Illinois
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
PAUL COOK, California                MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
               Alexander Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk





















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, February 11, 2014, United States Security Policy and 
  Defense Posture in the Middle East.............................     1

Appendix:

Tuesday, February 11, 2014.......................................    37
                              ----------                              

                       TUESDAY, FEBRUARY 11, 2014

  UNITED STATES SECURITY POLICY AND DEFENSE POSTURE IN THE MIDDLE EAST
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Pandolfe, VADM Frank C., USN, Director for Strategic Plans and 
  Policy (J-5), Joint Staff, U.S. Department of Defense..........     8
Patterson, Ambassador Anne W., Assistant Secretary of State for 
  Near Eastern Affairs, U.S. Department of State.................     3
Slotkin, Elissa, Principal Deputy Assistant Secretary of Defense 
  for International Security Affairs, U.S. Department of Defense.     5

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    41
    Pandolfe, VADM Frank C.......................................    65
    Patterson, Ambassador Anne W.................................    44
    Slotkin, Elissa..............................................    57
    Smith, Hon. Adam.............................................    42

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Hanabusa.................................................    73

Questions Submitted by Members Post Hearing:

    Mr. McKeon...................................................    77

  UNITED STATES SECURITY POLICY AND DEFENSE POSTURE IN THE MIDDLE EAST

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Tuesday, February 11, 2014.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen. We appreciate all of you being 
here today. The committee meets to receive testimony on United 
States security policy and defense posture in the Middle East.
    And I just want to point out before we begin that there 
will be no disruptions at the hearing. We appreciate you all 
cooperating for that to make sure that everything goes well.
    Our witnesses today include Ambassador Anne Patterson; Ms. 
Elissa--Elissa, I have got a granddaughter, Elissa--Slotkin; 
and Vice Admiral Frank Pandolfe.
    Thank you all for joining us here today.
    The committee has conducted several classified briefings 
and open hearings with outside experts on this topic area. 
However, today is an opportunity to build upon that knowledge 
in an open forum with senior policy and military leaders in our 
government. The Middle East is in the midst of a particularly 
tumultuous period, from the Arab Awakening to the evolution of 
Al Qaeda, to the deadly conflict in Syria, to Iran's continued 
pursuit of nuclear weapons. We are witnessing a level of 
volatility in the Middle East that poses a serious threat to 
U.S. security and to our interests in the region.
    While our allies and partners seek strong U.S. leadership 
and engagement in the region, they instead see signs of 
disengagement. Our withdrawals from Iraq and Afghanistan, the 
administration's rebalance to other regions and its dealmaking 
with Iran help shape this view. There is widespread uncertainty 
about U.S. commitment in the Middle East.
    As noted by former U.N. [United Nations] Ambassador to Iraq 
James Jeffrey in a recent op-ed, and I quote, ``As often 
happens in this region, the administration is sounding an 
uncertain tone. The result has been an extraordinary collapse 
of U.S. credibility in the region, despite many commendable 
administration steps,'' end quote. These comments illustrate a 
lack of certainty about U.S. policy in the region.
    Equally important is our military posture in the region, 
how we combat evolving threats, deter Iran, degrade Al Qaeda, 
and assure our allies and partners. We also must ensure our 
military posture and its associated capabilities are not traded 
for interim deals with regimes that have a history of 
noncompliance.
    We look forward to your testimony on the administration's 
policy and posture in the Middle East and how they 
comprehensively support U.S. national security interests.
    Now I will turn to Ranking Member Smith for his statement.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 41.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Thanks to our exceptionally well qualified group of 
witnesses. Look forward to your testimony and discussion on 
this important region.
    It is a complex and difficult region, perhaps as complex as 
it has ever been for us with the Arab Awakening; our, you know, 
presence in Iraq and then withdrawal from Iraq and now the 
difficulties that are there; Syrian civil war; transition 
governments in Egypt, Tunisia, and a whole lot of other places; 
and an ongoing effort, once again, to try to reach and resolve 
the Israeli-Palestinian crisis. I cannot imagine a more 
difficult set of challenges.
    And I think our commitment to the region is clear. I will 
disagree with the chairman on that. I mean, our efforts to 
negotiate with Iran are an effort to resolve what is an 
incredibly difficult tension. We do not want Iran to have a 
nuclear weapon. And if we are going to prevent them from doing 
that, we need to actively engage, which I believe that we are.
    I also, you know, very much support Secretary Kerry's 
efforts to, once again, try to resolve the Israeli-Palestinian 
crisis, which is a major source of tension in the region and 
significant uncertainty for Israeli allies.
    I think we are committed and engaged in the region. The 
problem is it is a very difficult region. And the thing I am 
most interested in is how do we work in that region, 
understanding that we cannot control it? And I think that is 
the problem with some of the analysis out there as if the U.S. 
simply woke up one day and decided to be more engaged, everyone 
would listen to us and, you know, solve all of their problems. 
You know, one of our problems and challenges in the region is 
understandably that region wants to be autonomous. They do not 
want to think that the U.S. is the one that is going to show up 
and solve their problems.
    And also to be perfectly honest, we have some credibility 
issues in that region. You know, people, you know, you saw in 
Egypt, you know, both sides were claiming that the reason that 
Egyptians should support them is because the U.S. was 
supporting the other side. You know, that lack of credibility 
undermines our ability to simply show up, have a presence, and 
fix problems. It creates a very complex diplomatic set of 
circumstances.
    So I am very interested to hear from our witnesses how we 
manage that, how we do stay involved, because I think it is 
critical that we do, but stay involved in a way that is 
positive and helpful and understanding the limitations on our 
ability to simply show up and solve these problems in a region 
that ultimately is going to have to solve its own problems. How 
do we balance those challenges?
    You know, I think the administration is having a clear 
message, and it is trying to do that, but it is a difficult, 
complicated region. So I look forward to your testimony 
explaining how we can navigate those very, very challenging set 
of circumstances that exist in the Middle East. And I thank you 
for being here, and I look forward to your testimony and the 
questions that follow.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 42.]
    The Chairman. Thank you.
    Ambassador Patterson.

STATEMENT OF AMBASSADOR ANNE W. PATTERSON, ASSISTANT SECRETARY 
  OF STATE FOR NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Patterson. Thank you, Mr. Chairman, Ranking 
Member----
    The Chairman. Ambassador, you are going to have to just 
pretend like you are----
    Ambassador Patterson. Thank you.
    The Chairman [continuing]. A rock star and swallow that 
microphone.
    Ambassador Patterson. Thank you.
    The Chairman. It really only picks it up if you are right--
--
    Ambassador Patterson. Close to it.
    Thank you, Mr. Chairman, Ranking Member Smith, members of 
the committee. I am honored to appear before you today with my 
colleagues from the Defense Department. Together with the 
Intelligence Community, we work to protect our country from 
terrorist attacks and to promote American national security 
objectives.
    The Middle East today is undergoing historic changes. 
Across the region, we are seeing unprecedented political 
ferment and in some cases upheaval as people demand change. 
There are deep demographic and economic forces that add urgency 
to this situation, but it is clear that the forces of change 
are knocking down some of the longstanding pillars that have 
supported regional stability. Regrettably, there are no easy 
solutions.
    The rapid pace of events in the region also threatens to 
open long dormant divisions within societies, among class, 
sect, religion, and ethnicity. These developments feed 
revolutionary sentiment and set the conditions for extremism 
that is rejected by the vast majority of people across the 
region and poses a threat to the United States.
    The United States is and will remain firmly engaged in the 
Middle East. Our relationships in the region make the United 
States an essential player in the search for diplomatic 
solutions. The region's people want effective governments that 
respect universal rights, presenting us with opportunities to 
show the way. Our position in the global economy can help both 
ourselves and the region through broader trade and investment. 
Secretary of State Kerry has undertaken extraordinary efforts 
to address the region's pressing and interrelated challenges 
and leading efforts to prevent Iran from obtaining a nuclear 
weapon, to end the civil war in Syria, and to help reach a 
final status agreement between the Israelis and Palestinians.
    Mr. Chairman, I know this committee shares our deep concern 
about Iran's nuclear program. The United States is firmly 
committed to preventing Iran from acquiring a nuclear weapon. 
Talks on a comprehensive solution will begin in Vienna next 
week. Meanwhile, we can continue to enforce vigorously the 
existing sanctions put in place by the United States and many 
in the international community.
    We are also well aware that Iran continues to promote 
regional instability through both Iranian and proxy fighters. 
Iran's support for Hezbollah has done much to destabilize 
Lebanon, promote tensions along Israel's northern border, and 
help keep the Assad regime in power. Iran is also working to 
undermine Yemen's peaceful transition and Bahrain's stability. 
Our negotiations with Iran on the nuclear issue will not stop 
us from taking decisive steps with our partners in the Gulf, in 
Europe, and elsewhere, to end these and other dangerous 
activities.
    In Iraq, Mr. Chairman, Iraq has been experiencing 
escalating levels of violence. The two-way flow of extremists 
between Iraq and Syria has allowed high-profile attacks in 
Iraq, mostly led by fighters from the Islamic State of Iraq and 
the Levant, ISIL, formerly known as Al Qaeda in Iraq. Taking 
advantage of Iraq's fragility and government weakness, ISIL 
began shifting resources from Syria to Iraq last year, 
consistent with its broader ambitions. By last summer, they 
were launching between 30 and 40 suicide bombings monthly. In 
January, ISIL attacked and occupied Ramadi and Fallujah. 
Working with local leaders, the government has largely freed 
Ramadi of ISIL and its plans to clear Fallujah--and it plans to 
clear Fallujah using mostly tribal forces.
    I would like to thank the Congress for supporting the much 
needed military equipment we have been able to provide to Iraq. 
The government needs a professional and well-equipped army to 
engage extremist groups before they enter the cities.
    The growing violence has had a devastating effect on Iraq's 
people. To repair the damage, Iraq's political leaders must 
work together urgently across religious and ethnic divides on 
essential political reforms in advance of April 30th national 
elections.
    Mr. Chairman, 3 years ago in Syria, a series of peaceful 
protests against the Assad regime were met with violence and 
repression. The ensuing civil war has caused enormous 
destruction and terrible hardships for the Syrian people. It 
has also had serious consequences for Syria's neighbors, 
Turkey, Lebanon, and Jordan, as well as Iraq.
    The United States has responded to this crisis by providing 
more than $1.7 billion in a humanitarian assistance, the 
largest of any nation, for people affected by the conflict 
inside Syria and across the region. The Assad regime has 
responded with obstruction and delay, preventing aid from 
reaching more than 250,000 civilians. Although there has been 
modest progress in Homs, civilians remain trapped in the cities 
of East Ghouta and Mouadamiya. The conflict has become a magnet 
for extremists from around the world trying to hijack the 
Syrians' aspirations. We assess there are nearly 26,000 
extremist fighters in Syria, including more than 7,000 foreign 
fighters from up to 50 countries. Many are affiliated with 
designated terrorist groups, such as the Al-Nusra Front and 
ISIL, openly competing with the moderate Syrian opposition and 
the regime.
    The United States has worked to build an international 
consensus for ending this conflict. Although the Geneva II 
process has begun, supported by over 40 nations and 
international organizations, it initiates a process that can 
only end with the Assad regime's departure. Our team is in 
Geneva today seeking progress on discussions toward a 
transition process and steps to ensure humanitarian access to 
the civilians trapped by the conflict.
    We are working closely with international partners to 
support the Organization for the Prohibition of Chemical 
Weapons [OPCW] to meet the ambitious June 30th target date for 
the elimination of Syria's chemical weapons program. The OPCW 
has destroyed all of Syria's chemical weapons production and 
mixing equipment, and the U.S. and others are working with them 
to destroy remaining chemical weapons and precursors. We are 
concerned about the Syrian government's slow pace and are 
working with the international community to press them to 
fulfill their international obligations.
    Mr. Chairman, the United States will remain engaged in 
resolving some of the region's major international political 
crises. We will use our influence to press for political 
reforms and democratic governments that respects universal 
rights, enabling societies to change and adapt, and we will 
press for economic reforms and seek to expand trade and 
investment to provide jobs, opportunities and hope that will 
benefit people in the region and the United States. Progress in 
these three areas can help turn the extraordinary creativity 
and energy of people in this region toward the building of a 
better future. It will take years of work, but our national 
security depends upon it. Thank you.
    [The prepared statement of Ambassador Patterson can be 
found in the Appendix on page 44.]
    The Chairman. Thank you.
    Ms. Slotkin.

    STATEMENT OF ELISSA SLOTKIN, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, U.S. 
                     DEPARTMENT OF DEFENSE

    Ms. Slotkin. Thank you very much. Can you hear me? Does 
this work? Yeah.
    The Chairman. Right into it.
    Ms. Slotkin. Right into it. Okay.
    Chairman McKeon, Ranking Member Smith and other 
distinguished members of the committee, I appreciate the 
opportunity to speak to you on both our multilateral and 
bilateral defense relationships in the Middle East and how 
these partnerships fit into our broader regional policy.
    In broad terms, our strategy involves cooperating with 
regional partners and the international community in order to 
help foster a Middle East that is stable, peaceful, and 
prosperous and that, over time, succeeds in fulfilling the 
aspirations of its own people. The people in the region want a 
greater say in national affairs. They want broadening of human 
opportunity, and they want recognition of the rights and 
dignity of every individual.
    The continuing ripples of the Arab Spring and the political 
transitions taking place in the Middle East offer the United 
States both opportunities and challenges as we work to address 
our core interests. Those interests are combating Al Qaeda and 
affiliated movements; confronting external aggression directed 
at our allies and partners; ensuring the free flow of energy to 
the rest of the world; and preventing the development, 
proliferation, and use of weapons of mass destruction.
    Given the intersection of these four core interests, the 
greater Middle East remains a region of vital strategic 
importance to the United States. This is a point the 
administration has made repeatedly, including in the 2012 
Defense Strategic Guidance, which affirms that, quote, ``The 
United States will continue to place a premium on U.S. and 
allied military presence in and support of partner nations in 
and around the region,'' end quote.
    At the core of this commitment are four critical tools that 
the Defense Department uses to achieve U.S. goals in the 
region: our force posture, our bilateral relationships, our 
growing multilateral relationships, and our military exercises 
across the region. I will briefly talk about each of these in 
turn.
    First, our force posture: The most tangible sign of U.S. 
commitment that we can make to the security of the region is 
the physical presence of the men and women in uniform as well 
as the presence of advanced military equipment. Anyone, friend 
or foe, who looks at our presence in the Middle East will come 
to only one conclusion: our commitment to the Middle East is in 
no way eroding. We have ground, air, and naval presence of more 
than 35,000 U.S. forces in and around the immediate vicinity of 
the Gulf. We routinely maintain a naval presence of more than 
40 ships, including a carrier strike group, and conduct a range 
of freedom of navigation operations. These operations have 
included approximately 50 transits of the Strait of Hormuz over 
the past 6 months. Taken together, the U.S. has the ability to 
project power in the region, deter our adversaries, and 
reassure our allies and partners.
    Another critical tool, and one I cannot overstate, are 
bilateral relationships in the region. The Middle East is home 
to some of the most important bilateral security relationships 
we have anywhere in the world, and that starts, of course, with 
Israel. The U.S.-Israeli defense relationship remains stronger 
than ever. In addition to the State-led and DOD-executed 
[Department of Defense] Foreign Military Finance Program, DOD 
contributes to Israeli security by maintaining Israel's 
qualitative military edge and authorizing the sale of advanced 
technology to Israel. The U.S. is providing $3.1 billion in 
foreign military financing to Israel this year as part of a 10-
year, $30 billion commitment to Israel. We are in near daily 
contact with our Israeli counterparts.
    Another bilateral security relationship that is important 
to achieving U.S. goals in the region is our relationship with 
Egypt. The U.S.-Egypt relationship is one of our most 
significant and enduring defense relationships in the region. 
For more than 30 years, it has served to further our countries' 
joint security interests. Our bilateral partnership facilitates 
cooperation on counterterrorism, eases U.S. military access and 
critical overflight privileges, helps improve the security of 
Israel, and contributes to the security of our embassy and 
consulate. As we recalibrate the relationship in the wake of 
the Arab Spring, it by no means diminishes the importance that 
Egypt plays in the region.
    Another important bilateral relationship that we continue 
to work on is with the government of Iraq. Since 2011, we have 
normalized our security cooperation with Iraq by forming the 
Office of Security Cooperation under the U.S. embassy and 
reducing its size from more than 700 uniformed military 
personnel to 108 personnel today.
    We have been tracking the uptick in violence and the 
situation in Anbar, obviously, very closely. We, along with our 
State Department colleagues and others in the U.S. Government, 
have been urging the government of Iraq that the only long-term 
way to defeat the Islamic State of Iraq and the Levant, ISIL, 
is through robust cooperation with Sunni leaders, and we 
continue to encourage Prime Minister Maliki to address Sunni 
grievances. Iraq will only be secure when all Iraqis are 
included in the political, economic, and social life of the 
country.
    Our bilateral relationships are critical, but our policy in 
the Middle East also depends on our growing multilateral ties. 
Our recent multilateral initiative was the President's 
determination to make the Gulf Cooperation Council, GCC, 
eligible to be furnished with U.S. defense articles and 
services as a single entity, a designation similar to NATO 
[North Atlantic Treaty Organization] or the African Union. This 
designation will help us work with our Gulf Cooperation Council 
member states to enhance critical capabilities, including items 
for ballistic missile defense, maritime security, and 
counterterrorism.
    Of course, multilateral relationships are especially 
important in contexts where our national security depends on 
very broad diplomatic support. The United States continues to 
support the U.N.-Arab League Joint Special Representative 
Brahimi and the opposition in their efforts to find a 
negotiated political solution to the Syrian crisis and the 
creation of a transitional governing body within the framework 
of the Geneva communique.
    We will also continue to closely watch the multilateral 
effort to ensure the destruction of Syria's chemical weapons 
arsenal. The Department of Defense has dispatched the naval 
vessel, Cape Ray, to receive Syrian chemicals and ultimately 
dispose of them ahead of the June deadline.
    Another difficult regional situation that we have sought to 
address through multilateral engagement is the often 
destabilizing behavior of the government of Iran. Let me once 
again reiterate what this administration has said repeatedly: 
We will not allow Iran to acquire a nuclear weapon. Our 
strategy of pressure and engagement, a strategy made possible 
by strong multilateral sanctions, has created a window for 
diplomacy, and the Joint Plan of Action was an important first 
step. We are now focused on testing the prospects for our 
comprehensive nuclear deal, based on verifiable actions that 
convince us and the international community that Iran is not 
trying to obtain a nuclear bomb. The Department fully supports 
these diplomatic efforts while continuing to focus intently on 
ensuring that the President has all options available should 
negotiations falter or Iran not abide by its commitments.
    Finally, the Department's military exercises help us 
advance security relationships in the Middle East, both 
bilateral and multilateral. I will allow my colleague, Vice 
Admiral Pandolfe, to provide more detail, but let me assure 
you, we are exercising with our partners in the air, on the 
ground, and at sea, improving experience in interoperability 
and working together on common security challenges.
    Thank you, members of the committee, for this opportunity 
to discuss the primary tools we are using to advance our 
security priorities in the region. I look forward to your 
questions.
    [The prepared statement of Ms. Slotkin can be found in the 
Appendix on page 57.]
    The Chairman. Thank you.
    Admiral.

    STATEMENT OF VADM FRANK C. PANDOLFE, USN, DIRECTOR FOR 
STRATEGIC PLANS AND POLICY (J-5), JOINT STAFF, U.S. DEPARTMENT 
                           OF DEFENSE

    Admiral Pandolfe. Good morning, Chairman McKeon, Ranking 
Member Smith, and distinguished committee members. Thank you 
for this opportunity to update you regarding how our military 
forces are supporting U.S. policy objectives in the Middle 
East. Our vital interests in that unsettled part of the world 
are significant, and we are committed to working with the 
states of the region to strengthen security, enhance 
deterrence, and prevent war.
    The U.S. seeks to increase regional stability, decrease 
violent extremism, and counter the proliferation and the use of 
weapons of mass destruction against our Nation, our allies, and 
our partners. We cannot do these things alone. Rather, to 
accomplish these goals, we work together every day with other 
agencies of our government, with forward station State 
Department professionals, and with partner countries in the 
region.
    All of these missions require us to maintain significant 
combat power forward and to continually interact with our 
partners by way of operations, training, and investing in 
military-to-military relationships. Let me share a few 
examples.
    Regarding operations, our forces in the Middle East operate 
continuously on the land, in the air, and on the sea, routinely 
conducting freedom of navigation operations, forward 
deployments, and port visits. They enhance stability and 
safeguard access to the global commons. U.S. military forces in 
the area are significant, with thousands of personnel deployed 
throughout the region, especially in and around the Arabian 
Gulf and in Afghanistan. Included in these numbers are U.S. 
soldiers and marines with armor, artillery, and attack 
helicopters; highly trained special operations forces; our most 
advanced aircraft; advanced surveillance assets; a wide array 
of missile defense capabilities, including ballistic missile 
defense ships and Patriot batteries; and a large naval 
presence, including a carrier strike group, mine-sweeping 
capabilities, and an afloat forward staging base.
    Additionally, as mentioned, we conduct numerous exercises 
to increase the proficiency and the interoperability of our 
partners across all mission areas, including war fighting, 
counterterrorism, maritime security, and peacekeeping. U.S. 
CENTCOM's [Central Command] extensive exercise program 
includes, on average, 35 significant exercises each quarter. In 
2013, our training efforts included Exercise Eagle Resolve, 
which was hosted by Qatar and included forces from 12 nations. 
Exercise Eager Lion in Jordan involved 8,000 personnel from 19 
nations, and the International Mine Countermeasures Exercise in 
Bahrain included 40 nations and 35 ships. These are just a few 
of the hundreds of engagements conducted by all services with 
foreign partners each year.
    In conjunction with the Department of State, our military 
also maintains an aggressive schedule of leader interactions to 
strengthen relationships. These help us better understand 
regional perspectives on common security issues while fostering 
cooperation. For example, Chairman Dempsey participated in the 
Middle East Chiefs of Defense Conference in Jordan last August. 
Also CENTCOM Commander, General Austin, and his service 
component commanders continuously engage their regional 
counterparts, such as at the Regional Air Defense Chiefs 
Conference in November 2013. Engagements such as these allow us 
to listen to partner nation concerns, assure them of support, 
and demonstrate U.S. commitment to the region.
    We complement operations, exercises, and key leader 
engagement with efforts aimed at strengthening partner 
capacity. A key aspect of these initiatives are foreign 
military sales and foreign military financing programs, 
including more than $75 billion in U.S. arms sales to Gulf 
Cooperation Council states since 2007. We are also co-
developing advanced ballistic missile defense capabilities with 
Israel. Additionally, International Military Education and 
Training is a key investment we are making to build enduring 
relationships with partner nations, civilian and military 
leaders. We have trained over 3,000 officers through this 
program from this region over the last 13 years.
    Finally, we are working with partners throughout the region 
to help them better defend critical assets, including in the 
physical sense and in the cyber world, including military sites 
and key infrastructure.
    Ladies and gentlemen, your military's men and women are 
forward deployed every day in the Middle East in support of our 
national defense. We are proud of their efforts and their 
sacrifice.
    Thank you for this opportunity to speak to your committee 
this morning, and please accept my gratitude for all you have 
done for us.
    [The prepared statement of Admiral Pandolfe can be found in 
the Appendix on page 65.]
    The Chairman. Thank you.
    As I mentioned in my opening statement, there is a 
tremendous level of volatility in the Middle East. Last week, 
we received testimony that Al Qaeda is a growing threat, 
particularly in Iraq and Syria, and you have referred to that.
    Given the failure to achieve a status of forces agreement 
[SOFA] with Iraq, which could have provided for residual U.S. 
presence in the region, the rise of Al Qaeda and the associated 
instability in that region, what lessons can we learn from the 
experience and how we should transition in Afghanistan?
    Ms. Slotkin. Okay. Well, obviously, we watch the events 
going on in Iraq right now very closely. Anyone like myself who 
served there feels--the only reaction is to feel emotionally 
when you see what is going on in Anbar.
    I do think that the idea that if we had negotiated a 
follow-on settlement with the Iraqis and had a SOFA and a 
remaining force, the idea that that force would be able to 
prevent what is going on is--I am not sure that that would be 
possible. You know, at the height of the American presence in 
Iraq, the height of the surge, 170,000 troops, we had levels of 
violence that we are seeing right now in Anbar, so I am not 
sure that a remaining force of 10,000 would have been able to 
prevent this.
    More importantly, I do think that our overall goals in the 
region are to support partners and allies as they manage their 
own threats, manage threats within their borders. That is our 
goal in many states in the region, and Iraq being one of them. 
That is why some of the accelerated weapons transfers that you 
have been seeing have been going on. We have been pushing very 
hard to get the Iraqis what they need to take on those threats, 
learn the lessons that they need to learn to manage those 
issues within their own territory.
    In terms of what it teaches us for Afghanistan, I am not 
sure the situation is analogous. Back when we were negotiating 
the original SOFA in 2008, it barely passed the Iraqi 
parliament on the very last day of the session with a slim 
margin, and whereas in Afghanistan, you have real support for 
an enduring presence in the country, both from the loya jirga 
members, from the members of their parliament, from the average 
person on the street.
    When it came to negotiating a follow-on agreement in 2011 
with the Iraqis, the President, our President and Prime 
Minister Maliki had conversations as two sovereigns, and the 
prime minister did not believe that he could get a follow-on 
agreement through his parliament. We respected that decision. 
And if we couldn't get the protections and immunities that we 
needed, we weren't going to stay. So I don't think there are 
direct lessons we can learn for Afghanistan from the Iraq 
experience, particularly because of the public support in 
Afghanistan for an enduring presence.
    The Chairman. To what extent is the Department of Defense 
consulted prior to the United States entering into the interim 
agreement with Iran regarding its nuclear program?
    Ms. Slotkin. I am sorry. I misunderstood. The Department of 
Defense was consulted and involved in the conversations before 
the agreement was publicized. We were involved in a robust 
series of interagency conversations.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I think one of the challenges of the Middle East is 
balancing our various interests there in terms of, you know, we 
certainly want stability, and we want to build relationships 
and have friends. At the same time, we are promoting democracy, 
we are--this is going into conflict in a number of places, in 
Egypt most notably, and I think, you know, part of the problem 
is we set this expectation that we are going to only support 
democratic and free governments, but it is really not possible. 
So when you look at Egypt, when you look at Saudi Arabia, when 
you look at Bahrain and you have some of those challenges 
where, you know, supporting a government that is not as free 
and open as we would like them to be is in our best interests 
in terms of maintaining relationship and stability, I think 
part of the problem with the credibility of our message is 
people don't see how we balance those two. We seem to 
constantly be moving back and forth between the two interests 
in a way that is confusing for the region.
    Now, it is very difficult to balance, but I am just curious 
how you would say we should go about messaging that and 
working. And you can get specific in terms of how we should 
handle Egypt and Saudi Arabia, Bahrain, any of those.
    Ambassador Patterson. Mr. Smith, this is always a very 
difficult balancing effort, as you outline. Let me talk for a 
minute about Egypt. Egypt is a country of 80 million people of 
enormous strategic importance to the United States and to 
Israel. We have a longstanding defense relationship with Egypt. 
We are very concerned about the upsurge in terrorism and 
insurgency in the Sinai, which is increasingly becoming an 
ungoverned space, but that said, we are also very concerned 
about the direction of the government, the arrest of 
journalists, the crackdown on secular activists. So we do have 
to balance these interests, and our hope is that we can balance 
them in an intelligent and effective way by encouraging the 
government to move toward the democratic process. They seem to 
be--they had a referendum. They are going to have elections 
soon, but we have to preserve our national security interests, 
and we have to preserve our relationship with the Egyptian 
military, because that is the bulwark of Camp David and in many 
respects the bulwark of regional peace, so we try to balance 
these as best we can.
    In Bahrain, as you know, there have been a number of 
discussions, certainly concerns about the human rights 
situation. We have had many discussions with the government 
about that, but it is also the home of the 5th Fleet and the 
center of a very important national security interest in the 
region. We balance them as best we can. And----
    Mr. Smith. Could we, on that--if I may. Sorry to interrupt. 
I think part of the problem with the messaging is when we come 
out, you know, in favor of, you know, a democratic government 
or opposed to a government because it is not democratic, our 
language is very strong that this is a core U.S. principle that 
we will not veer from, and yet everyone in the region knows 
that we veer from it with great frequency. And I am not saying 
that is wrong. I mean, you have to make choices; I mean, we 
cannot imagine perfect governments all around the world. But do 
you think we sometimes overstate the fact that, you know, come 
hell or high water, we are going to support democratic 
governments and then there are just so many obvious examples 
when we haven't, and is there a way to better balance that 
message in terms of how people in the region hear it and 
perceive it?
    Ambassador Patterson. Certainly, Mr. Smith, after my 
experience in Egypt, I think our messaging needs work. I would 
be hard-pressed to say, though, that we should not emphasize 
our long-term interest in a democratic transition, because that 
is critically important.
    Mr. Smith. Absolutely.
    Ambassador Patterson. I mean, they are absolutely--the only 
way these countries can become stable and prosperous is to move 
down the democratic path, but, yes, sometimes our messaging is 
a little in-adroit in all these circumstances.
    Mr. Smith. Thank you. On Syria, in particular, first of 
all, can you give us your latest assessment of the situation on 
ground in terms of the extremist groups, Al-Nusra and ISIS 
[Islamic State of Iraq and Syria]. You know, they seemed to be 
ascendant for quite some time; slight setbacks a couple weeks 
ago. How much--where are they at in terms of how dominant they 
are in the insurgency at this point?
    Ambassador Patterson. Well, Mr. Smith, they are 
increasingly important on the battlefield. As I mentioned, 
there are 7,000 foreign fighters from a large number of 
countries, including from a large number of Western countries, 
which means they have Western passports and potentially access 
to Western countries, but I certainly would not want to rule 
out the potential for the moderate opposition. Those people are 
out there fighting and dying every day, but certainly it is of 
great concern to us that ISIL, Al-Nusra Front and others are--
have a seemingly more active role in the battlefield.
    There are Islamic groups that we would not call extremists 
that are being funded by some of our allies. They, too, have a 
prominent role in the fighting, but yes, it is of great concern 
to us.
    Mr. Smith. Okay. Anybody else?
    Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Ambassador Patterson, I want to get back to this subject of 
credibility that the chairman raised a little bit earlier. And 
part of what really bothers me is Ms. Slotkin's answer to the 
chairman's first question. She said essentially that, Well, 
we--there was a lot of violence in Anbar when--before the surge 
and so there is really no lesson to be learned there, because 
our troops wouldn't have made any difference anyway. But what--
well, first, of course, there was a tremendous amount of 
sacrifice that was--of our folks as well as Iraqis required to 
change the situation in Anbar.
    Secondly, the hope was that some sort of continued 
engagement and advisory would increase their capability and 
keep them focused on the real enemy, the terrorists, not 
devolve into sectarian sorts of struggles. And so I want to 
get--and the fact that we are not there, I kind of wonder does 
that not affect the--the way the other countries see us as 
whether we are a reliable partner or not.
    Now, that is just kind of preliminary. You, obviously, 
served next door to Afghanistan. That is something that you 
have a lot of knowledge and experience about. I would like to 
hear your view about lessons from Iraq that may apply to 
Afghanistan and the larger question of U.S. credibility in the 
Middle East, whether we are a reliable partner or not.
    Ambassador Patterson. I do think--let me say I do think we 
are a reliable partner, and I think that our presence is very 
extensive. Let me just take, for instance, the example of Iraq 
and what we have done recently. We have made an extraordinary 
effort with the help of this committee and other committees in 
the Congress to give them the weaponry and the, frankly, the 
intelligence support that they need to meet this renewed threat 
from ISIL. And it was critically important that we provided 
Hellfire missiles, because they had attempted to go after these 
camps in the desert with thin-skinned helicopters and with--by 
ground, and had been unable to do so, so our armament came in 
at a critical point to enable them to go after some of these 
terrorists.
    We also have tried to step up training, we are planning to 
step up training. We have an enormous foreign military sales 
and foreign military financing program with Iraq. So I think it 
is very difficult to say that we have abandoned the Iraqis, 
because I think we are very intensely engaged there.
    And as to your broader question, sir, yes, I think we are 
going to need to be involved in these countries, whether it is 
Afghanistan or Pakistan or Iraq or Egypt, for decades to come, 
and not just in the military sense. The key element in all 
these countries is going to be job creation for the enormous 
number of young men that are coming into the labor force and 
basically have no prospects are a built-in element of 
instability. So, yes, generally speaking, whether it is by 
troops or through assistance or through our investment programs 
or any number of other mechanisms, we are going to have to be 
in these countries in force for decades to come.
    Mr. Thornberry. Well, I would just say I hope that the 
situation in Afghanistan does not have to get as bad and 
deteriorate as much as it had--as it did in Iraq before we re-
engaged. It got--well, secondly, I hear what you are saying and 
you all are all, you know, stating your opinion about our 
credibility, but I will just say what I hear from a variety of 
countries and U.S. people who visit those countries is they 
have real doubts about the U.S. position, whether we are a 
reliable ally; part of it is the negotiations with Iran, part 
of it is the pivot to Asia, part of it is our unclear policy 
with Egypt and Syria. And my fear is that doubts about our 
credibility increase the dangers in that region, and nothing 
would cause that to be in greater doubt than for us to abandon 
Afghanistan in the same way we did in Iraq.
    So thank you. I yield back.
    The Chairman. Thank you.
    Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being with us today.
    Admiral, if I could just start with you for a second, 
because I--we talked about the Pacific pivot certainly in this 
committee, and I am wondering--you also spoke certainly about a 
number of exercises in the region and I appreciate that, but I 
wonder how you assess our security goals, how they would be 
affected if our Navy was reduced in the total number of ships, 
including an aircraft carrier, of course, and also some of the 
LCS [littoral combat ship] fleet. Is that--where does that fit 
into the discussion?
    Admiral Pandolfe. Well, when the service chiefs come up, 
they attest to the requirements of their services, as derived 
from analytical analysis, which includes contingency planning, 
and the Chief of Naval Operations has testified to the size of 
the Navy that he feels is most appropriate and asked for 
funding for that fleet. We are concerned with the size of the 
Navy today, and we ask for your support to try to meet the 
Chief of Naval Operations' requirements.
    Mrs. Davis. Do you pick up from our partners in the region 
that the discussion of the Pacific shift, pivot, is of concern 
to them?
    Admiral Pandolfe. I don't think it is of tremendous 
concern. I think we have to--we have to explain the context, 
which is that in a rising Asia economically, it is important 
that we stay engaged in that theater, and that much of the 
rebalance we are talking about is the flow of forces that had 
been surged into Iraq and Afghanistan now returning to their 
normal bases in Hawaii and Washington State and Okinawa.
    It is by no means a disengagement from the Middle East. We 
have made that very, very clear. We retain extraordinary forces 
in the Middle East, not just quantitatively, but qualitatively, 
and we are fully prepared to meet our security commitments.
    As mentioned in my statements and others, our leadership 
continually passes this message personally to the leadership in 
that area, and I think they understand that and they do believe 
that we will be there for a long time to come in the numbers 
and the capabilities needed.
    Mrs. Davis. Thank you. I appreciate that.
    Madam Ambassador and Ms. Slotkin, actually, it remains a 
big deal, I think, to all of us that you are here testifying 
together. There was a long time before sometimes that occurred, 
and I wonder if you could share with us, in the midst of so 
many issues, crises, obviously, in the Middle East, how your 
Departments are prioritizing, synchronizing means to achieve a 
unity of effort. What can you point to that is really 
different? And I wonder in that discussion if you could also 
focus on the actual threats to the United States. We know that 
there are continual crises within the region, but focus on the 
threats to the United States particularly.
    Ambassador Patterson. Thank you. We have, in answer to your 
first question, extremely close collaboration with DOD. 
Frankly, it is as close as I have seen it in many respects in 
my 40-year career. For instance, when General Austin went out 
to the Gulf a few weeks ago, essentially to reassure our 
allies, Brett McGurk, who is very knowledgeable about Iraq, 
went with him. We have many such joint efforts and many 
meetings and collaboration on issues like our military 
assistance to Egypt and every other country. There is an 
extraordinary degree of collaboration, if I might say so, a 
very amiable relationship, which also wasn't always the case, 
but is certainly the case now.
    And on threats to the United States, I think when General 
Clapper testified last week, I think there is, of course, 
growing concern about the global reach of some of the groups 
that are operating in Syria right now, and the movement of some 
of the more hardened terrorists from the tribal areas of 
Pakistan into Syria who might potentially pose a threat to the 
United States.
    Mrs. Davis. Thank you.
    Ms. Slotkin, would you----
    Ms. Slotkin. Sure. I couldn't agree more. Certainly, as 
someone who worked on the Middle East, in terms of the 
cooperation among the interagency, I would characterize my 
experience in the previous administration as pretty 
adversarial. Now, maybe between agencies, maybe that was 
because I was working on Iraq, and it was particularly 
political, but it is the tone of the conversation I think has 
fundamentally changed, and while we meet with our interagency 
colleagues on a daily basis, it is the tone to me that is the 
most important change, not just the frequency of meetings. We 
work on everything together, so I think that that is a positive 
thing.
    In terms of the threats, obviously, we look at the threats 
coming out of Syria, Al-Nusra Front and the terrorists and 
extremist groups that are powerful there. And I think one of 
the positive examples of interagency collaboration has been our 
approach to dealing with containment of that threat in 
particular, so we have, in the past, I would say, year really 
upped our game with Jordan, what we are doing in Jordan. So in 
addition to the Patriots and the F-16s we have there, we have a 
military presence that supports increased border activity, 
helping the Jordanians train to manage threats to their 
borders. The same thing with Lebanon. We have a robust program 
with the Lebanese armed forces, but recently with the help, 
frankly, of the Congress, have moved ahead on some border 
security, additional border security programs dealing with----
    The Chairman. Thank you.
    Ms. Slotkin [continuing]. The Lebanese----
    The Chairman. The lady's time has expired.
    Ms. Slotkin. Pardon.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank all of you for being here. I would like to 
continue this question that the chairman began and Mr. 
Thornberry had about credibility.
    And, Ms. Slotkin, it seems like I heard you say that--if I 
didn't misunderstand, that we will not allow Iran to get a 
nuclear weapon, and you said that without any qualification at 
all. Is that correct?
    Ms. Slotkin. Correct. That is our current policy, yes.
    Mr. Forbes. Let me ask you this, then, because we do have 
some credibility problems. In fact, when you just made the 
mention of the previous administration was more adversarial, to 
some of us, we feel like maybe the Department of Defense was 
standing up a little bit more to State, and sometimes you are 
not adversarial if you are just saying, Okay, we will go along 
with what you want to do.
    But I look, and this administration could not stop a single 
employee of a nongovernment contractor from stealing and 
distributing to the world some of the most vital military 
secrets of this Nation, secrets that many members of this 
committee wouldn't have even had security clearance to look at. 
And yet you sit there and tell us, without qualification, that 
we will not allow Iran to get a nuclear weapon. Isn't it true 
that we may not even know when they are close to having a 
nuclear weapon?
    Ms. Slotkin. So what I would say is the President has 
stated over and over again----
    Mr. Forbes. I understand what the President has stated.
    Ms. Slotkin. Okay. So, to your issue first of credibility, 
so this strategy is----
    Mr. Forbes. No, no. If you don't mind, you have stated 
there unequivocally that we will not allow them to get a 
nuclear weapon, and yet you have heard and we have seen what 
has happened, even within the protection of our own 
information. How can you guarantee this committee that you are 
even going to know when Iran is close to having a nuclear 
weapon?
    Ms. Slotkin. Sir, particularly in an unclassified forum, 
the most I will say is General Clapper was up on the Hill 
talking about the Intelligence Community assessment, and we 
believe that should Iran make the decision to pursue a nuclear 
weapon, that we--it would take at least a year for them to do 
that. We can talk additionally in a classified forum, but for 
this forum, you know, the DNI [Director of National 
Intelligence] has said this clearly. Obviously the Department 
of Defense supports that assessment. That is our best 
estimation based on the intelligence we have.
    Mr. Forbes. And I don't have a problem saying it is our 
best guess, best estimation. It is when you come in here and 
say that the tack you are taking, unequivocally we are going to 
keep Iran from getting a nuclear weapon, I think that puts in 
jeopardy your credibility for being able to say that, because 
if we guess wrong, if the President guesses wrong in the 
direction he is going, we may not even know that until it is 
too late.
    But, Admiral, let me shift, if I can, to you. One of the 
things that I would like to ask you, Admiral, what regional 
initiatives both unilaterally and multilaterally are being 
undertaken to deal with growing Iranian anti-access/area denial 
[A2/AD] capabilities? How can the U.S. stiffen Gulf State 
resolve to resist Iranian belligerence in the event of a 
conflict to maintain U.S. access to forward bases, and what 
lessons or synergies can be gleaned from our attempts to 
preserve American power projection in the Asia-Pacific to 
assist our efforts in the Persian Gulf area?
    Admiral Pandolfe. So there are a number of initiatives to 
address the A2/AD threat that Iran poses in the Gulf and to its 
neighbors. So----
    The Chairman. Admiral, could you pull that mike up, sir?
    Admiral Pandolfe. I am sorry.
    The Chairman. Thank you.
    Admiral Pandolfe. There are a number of initiatives that we 
are working to help counter the Iranian A2/AD threat. Among 
them are working with the Israelis on ballistic missile defense 
programs, including their suite of weapons, which are coming 
along very well, and integrating the Gulf States into a more 
comprehensive air and missile defense architecture. This was 
discussed by Secretary Hagel recently in his overseas speech in 
Manama. We are working to train forces in a number of countries 
for border security and for counterterrorism to get at the--in 
the terrorist threat sponsored by the Iranian threat network.
    So when you look at the array of capabilities from 
conventional ballistic missile all the way down to sea denial 
and then into the--in the asymmetric or terrorist world, we are 
sponsoring programs to strengthen our friends and partners, as 
mentioned by Ms. Slotkin, both bilaterally and increasingly 
multilaterally, to put down a clear marker that these nations 
are united in their concern about and their intention to push 
back against Iranian attempts at intimidation.
    For our own Nation, we are----
    Mr. Forbes. And, Admiral, my time is up.
    Admiral Pandolfe. I am sorry, sir.
    Mr. Forbes. But maybe I can chat with you a little bit more 
at a later time, but thank you so much for that information.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I would like to thank our witnesses for being here today. 
Let me--I have several questions that I would like to get to. 
Let me start with one with respect to ISIL.
    Last week, we saw an unprecedented move from Al Qaeda's 
leadership to disassociate themselves from ISIL. What does this 
latest move mean for the strategy of core Al Qaeda going 
forward and specifically for their influence and abilities 
within the geopolitical landscape of the Middle East? And has 
this announcement affected our approach to fighting Al Qaeda?
    Ms. Slotkin. Obviously, we watched Zawahiri's announcement 
with great interest in the government since it was the first 
time we have seen an affiliate actually have a break with Al 
Qaeda central. I think we are still trying to assess exactly 
what it means in terms of your question on impact on sort of 
regional policy, and I think one of the fundamental questions 
we have is, is this a sign of strength or a sign of weakness 
for Al Qaeda core?
    Certainly, I think our early initial--our early assessments 
indicate that it means that Al Qaeda core is very interested in 
what happens in Syria. Right? So ISIL had been accused by Al 
Qaeda core of insubordination, and ISIL has obviously become 
very powerful in Iraq in addition to Syria.
    One possibility that we are still exploring is that the Al 
Qaeda core is more interested in Syria than anything else in 
the region and has put their emphasis on Al-Nusra Front because 
of the importance of Syria. We are still trying to assess what 
it means for our policies, and we watch it very, very closely.
    Mr. Langevin. And with respect to the ISIL demonstrating 
insubordination, as Zawahiri called it, what was the center of 
that insubordination? What is it that they are referring to?
    Ms. Slotkin. I think, again, in an unclassified forum, they 
had good old-fashioned command and control problems----
    Mr. Langevin. Okay.
    Ms. Slotkin [continuing]. Listening to the boss.
    Mr. Langevin. Okay, thanks.
    Turning to Egypt, what are the United States policy 
objectives with regards to Egypt over the short and the long 
term, and let's start with that.
    Ambassador Patterson. Thank you.
    The policy objectives are to promote a democratic 
transition, and Egypt has had a referendum. Again, it was not 
problem-free, but there are elections, and then to promote our 
national security interests which involve our longstanding 
relationship with the Egyptian military which goes back many 
decades and to do everything possible we can to help the 
Egyptians reduce some of the terrorists and insurgency in the 
Sinai.
    We are working with the Egyptian military. We have 
continued counterterrorism cooperation, we have continued 
sustainment, we have continued training to help them meet these 
new threats. So we have really multifaceted objectives in 
Egypt.
    Mr. Langevin. And right now, how do you assess how stable 
the Egyptian economy is and are their foreign currency reserves 
and the external assistance they receive, are they adequate to 
meet their needs?
    Ambassador Patterson. Almost certainly not, Congressman. 
They have gotten an influx of foreign exchange from the Gulf 
countries to the tune of somewhere around $10 billion and that 
has shored them up, but Egypt has been very hard hit by the 
decline in tourism and the freezing essentially of investment 
flows, and it is essential that Egypt undertake some economic 
reforms and get some political stability so it can realize 
really the enormous economic future that it has before them. 
But the situation is rather dire at the moment.
    Mr. Langevin. And worst case, what could we reasonably 
expect with regards to the governance situation in the country 
if the Egyptian economy collapses?
    Ambassador Patterson. Well, certainly in my view their 
economic problems were key in these periodic upheavals, and 
again the huge unemployment, particularly among young men. If 
they don't solve their economic problems and they don't find 
jobs for all these people coming into the labor force, we are 
going to continue to see political instability and street 
demonstration and threats to the governments that are unable to 
meet the goals of their people.
    Mr. Langevin. And what is at stake right now with respect 
to the next round of Egyptian elections and are there any 
possible outcomes likely to lead to the denigration in the 
security situation?
    Ambassador Patterson. Well, the security situation has 
deteriorated recently with the increase in activity of a Ansar 
Beit al-Maqdis. It is a group that has only been active in the 
Sinai. So there has been some considerable deterioration. We 
are hopeful that the referendum, the presidential elections, 
and now the parliamentary elections will bring some political 
stability to Egypt that will then allow the economy to get back 
on its feet.
    The Chairman. Thank you.
    The gentleman's time expired.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman, and I thank the 
witnesses for being here and your long service to our country.
    Ms. Slotkin, I too was struck by the declarative statement 
that you made that Iran will not get a nuclear weapon. This 
administration has at least from a domestic standpoint, has got 
some pretty famous declarative statements out there that 
haven't really worked all that well. You had nothing to do with 
that and I got that. So if they snuck up on us and got one, 
would you also interpret that to say we would not let them keep 
it?
    Ms. Slotkin. Yes. So I think the President has been very 
clear on this that----
    Mr. Conaway. His credibility is not real good with us; what 
is your thinking on this?
    Ms. Slotkin. So I think what is frankly underwriting the 
current work on diplomacy on this issue is the Department of 
Defense's strong posture in the region and our ability to act 
from that posture against----
    Mr. Conaway. Okay.
    Ms. Slotkin [continuing]. All contingencies, and, frankly, 
our----
    Mr. Conaway. Okay. But your recommendation is that we would 
not let them keep a weapon. If you are committed to them not 
getting one, and I assume you are, you made the statement----
    Ms. Slotkin. Of course.
    Mr. Conaway. Your recommendation is we would not let them 
keep it either, right?
    Ms. Slotkin. All options are on the table.
    Mr. Conaway. Okay.
    Ms. Slotkin. The President has said that and the Department 
of Defense is----
    Mr. Conaway. All right, let me pivot to Russia and the 
influence they are having in Egypt, Syria, and other places. 
Madam Ambassador, what are your thoughts. Are they being 
helpful in the region, hurtful, and what do you think Putin is 
trying to do?
    Ambassador Patterson. Well, Congressman, it is a mix. I 
mean they have been helpful in the P5+1 [U.N. Security Council 
permanent members plus Germany] negotiations with Iran, they 
have been helpful in the quartet, they have been helpful in the 
removal of Syria's chemical weapons, and my own view is, for 
instance, their so-called inroads into Egypt are much 
exaggerated. I mean we have a very robust and longstanding 
relationship with Egypt on the military side. There is some 
residual Russian equipment and there were some trips there by 
Russian officials, but again, I don't think it they can begin 
to compete with our relationship with the Egyptian military.
    Mr. Conaway. And your assessment that keeping Assad in 
power in Syria is in Russia's best interest?
    Ambassador Patterson. That is a difficult question, 
Congressman. I think the Russians are conflicted and, well, I 
think they are very concerned about the terrorist--the growth 
in terrorism in Syria which threatens their own country. There 
are a number of Chechens there. And this is a subject of 
constant interaction with the Secretary and other officials 
with the Russian government. We are trying to work very closely 
with them. We have managed to do so on chemical weapons, and we 
are trying to work very closely with them on humanitarian 
access and on the broader picture.
    Mr. Conaway. All right. Madam Ambassador, I was also piqued 
by your comment that the United States would have some role in 
creating jobs in these countries. Again, the administration 
that serves us right now has got a very poor track record of 
creating jobs here in America for our youth and young men and 
women trying to come into this workforce. Do you really see 
us--as that being one of our core roles, is to create jobs in 
these countries?
    Ambassador Patterson. Actually I do. You know, we can act 
as catalyst on job creation. It is not the U.S. Government that 
creates jobs, it is American companies and foreign investors 
that create jobs and the local people that create jobs. But we 
can do things like promote programs on entrepreneurship, like 
promote innovation, like promote high schools in technology and 
science. There are things we can do through our assistance 
programs that can facilitate that.
    Mr. Conaway. Okay.
    Ambassador Patterson. Yes, I do think we have a role.
    Mr. Conaway. So, could we morph some of the domestic 
policies this administration has been unsuccessful with over 
the last 5 years to use as the guideposts in your part of the 
world?
    Ambassador Patterson. Well, I just mentioned, Congressman, 
a few of the projects I think we can do and have done 
successfully in this part of the world to facilitate 
investment. It is the private sector and it needs to play a 
greater role.
    Mr. Conaway. Okay, well, I appreciate that clarification. 
It is the private sector. Madam Ambassador, I was whacking at 
you a little bit. I honor your service. You have been in the 
worst parts of the world for a long time, so, please don't--I 
am trying not to be disrespectful, but you have got a bad hand 
to play. But you have been in a bad part of the world for a 
long part of your career and I really respect that immensely.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I think if we listen to the comments of my brothers and 
some sisters on the other side of the aisle we will come to the 
conclusion that the Obama administration is responsible for 
every problem that America has, both domestically and 
internationally, and it is a shame I think that we have now 
come to politicization of our foreign policy partisanship on 
that issue.
    The issues that we deal with on this committee are much too 
complex and serious than to devolve into partisanship on this 
committee, and I think our history as a nation has brought us 
to this point, and that has not been a partisan issue, and it 
is going to take all of us to work towards a more peaceful and 
prosperous world. I don't think there is anybody out here that 
doesn't want peace and prosperity, and that is what we should 
be fighting for, that is what we should be employing our hard 
power to produce when it is necessary, and we should also be 
focusing so much on our soft power that can actually produce 
the peaceful result.
    And I think that there has been a lot of success that this 
administration can claim in terms of peaceful progress, and I 
won't go over all of them, from reaching an agreement with Iran 
for a 6-month period to navigating an agreement to prevent them 
from becoming a nuclear weapons power, to the removal of--or 
the march towards the removal of chemical weapons from Syria, 
the extraction of our forces from the unfortunate war in Iraq, 
and unfortunately for them and for us, they did not enable us 
to sign a status of forces agreement over there so we had to 
come on out, and the same thing will happen in Afghanistan if 
they don't agree to the very reasonable terms of a status of 
forces agreement.
    So I would like to ask though about Egypt and the fact that 
there are at least 23 journalists who have been arrested and 
charged with terrorism or support of terrorism due to the fact 
that they have been reporting on the Muslim Brotherhood. I 
would like for you to speak on, Ambassador Patterson, our 
efforts, if any, to produce the freedom for those journalists. 
Indeed, if Egypt is to become a nation with democratic ideals, 
it should certainly start with freedom of the press which is 
closely linked to freedom of association and freedom of speech.
    Can you give us, Ambassador Patterson, some idea on 
America's way forward in ensuring that those journalists can be 
freed?
    Ambassador Patterson. Yes, thank you, Congressman.
    We entirely agree with your assessment that freedom of the 
press is absolutely key because it surfaces all the other 
issues. Let me assure you, Congressman, that the administration 
has pressed hard on this issue.
    It has been the subject of Secretary Kerry's conversations 
with Egyptian leaders, it has been the subject of Secretary 
Hagel's conversation was his counterparts in Egypt, and we will 
continue to press on these issues and urge that these 
journalists be released. A number of them are non-Egyptian. 
Some of them are very distinguished in their field. It is hard 
to believe they were reporting unfairly, and even if they had 
been that is most certainly not a grounds for their arrest.
    But it is a very high priority for us, as is encouraging 
the Egyptian government to enable freedom of association, and 
they have some recent laws which have curtailed that as well. 
These are worrisome trends, sir.
    The Chairman. Thank you very much. The gentleman's time has 
expired.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    This is for either for Secretary Slotkin or Ambassador 
Patterson. I am concerned that in Iran we have not known 
everything that was going on until sometimes years after the 
fact--years after the fact. The secret facility at Qom, for 
instance, we didn't know about that for years.
    So Secretary Slotkin, when you say it would be a year from 
when they would try to start breaking out and develop a nuclear 
weapon from their current status, and yet I know that we have 
allies and others like our Israeli allies and others who think 
it would be as little as 2 months, but whatever it is, whether 
it is closer to 2 months or closer to 12 months, is the U.S. 
military prepared to act in that limited window and use force 
if that is what it would take to keep Iran from actually 
deploying a nuclear weapon?
    Ms. Slotkin. Sure. So just starting from the top, first on 
the interim deal, first of all the joint plan of action allows 
for the IAEA [International Atomic Energy Agency] to verify 
Iran's compliance with the deal. I understand you are talking 
about there if there are things that are not on the table, but 
certainly the IAEA has a role until verifying compliance now. 
Any comprehensive agreement that we ever negotiate will 
emphasize verifiable means, right? We will have to have solid 
proof, we will not rely on just trusting the Iranians. And 
then, importantly, we remain confident that we could tell if 
Iran was making a dash towards a weapon and we believe should 
that decision be made, it would take at least a year.
    I stand by that, and I think in an unclassified forum that 
is as far as I will go. If for some reason negotiations broke 
down, if we didn't get a comprehensive deal, the President said 
all options are on the table, and the Department of Defense is 
prepared to take any action that the President deems----
    Mr. Lamborn. Okay, let me follow up on that for either you 
or the Ambassador, and this has already been alluded to by Mr. 
Thornberry and Mr. Forbes and others. But the credibility 
issue, I see that the lack of action in Syria, whether or not 
it would have been right for the U.S. to step in and use force 
to punish the use of chemical weapons upon his own people by 
Bashar Assad, the fact is that the Iranians are viewing that as 
a lack of credibility and a sign of weakness.
    What indications do we have that the Iranians are really 
taking seriously the threat that the U.S. would act militarily? 
I think that the credibility gap has widened considerably and 
is a very troubling thing.
    Ambassador Patterson. Congressman, I think one issue that 
we sort of overlooked here is their economy is in shreds. The 
sanctions have been extraordinarily effective in reducing their 
access to international financial institutions and reducing 
their petroleum production. So that has clearly gotten their 
attention and brought them to the table to negotiate.
    Mr. Lamborn. But has that been undone now to a large 
extent? I hear there is what is called a gold rush of European 
countries and the private sector going into Iran and now saying 
that they are open for business.
    Ambassador Patterson. Congressman, let me stress that Iran 
is not open for business and the American government will do 
everything it possibly can to enforce these sanctions on any 
company that would be so unwise as to engage in business with 
Iran right now. Yes, they are going, and I hope they are giving 
the message to Iran that if we were able to do business with 
you, there would be advantages. That is putting more pressure 
on them.
    But please rest assured that the sanctions have been 
effective, gotten them to the table. I don't think the 
credibility issue, again it seems that economically Iran is in 
a very weak position right now. So I think the issue of 
credibility, I do think, yes, some people would complain about 
that, but I think we are engaged militarily, we have gotten 
Iran to the table, we have an enormously robust presence in the 
Gulf and elsewhere in the region, so it is hard for me to see 
that our credibility has eroded.
    Mr. Lamborn. Admiral, let me ask one really fast question 
of you.
    We have sold arms, advanced arms, to some of the countries 
in the region outside of Israel. Are we able to make sure that 
they comply with the restrictions on the use of those advanced 
weaponry and arms?
    Admiral Pandolfe. Yes. First of all, before we agree to 
those arms sales, it goes through a very thorough vetting 
process to make sure that the qualitative military edge 
considerations are fully acknowledged and accepted in terms of 
ensuring there is a strategic balance that is properly 
maintained. Then we do have end-user agreement specifics in the 
agreements which allow us to make sure that the weapons are 
being employed to the role and mission that they were intended.
    Mr. Lamborn. Thank you.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Admiral, you testified about the Eagle Resolve as well as 
Eager Lion and there is a reference to 12 and 19 countries 
respectively that have participated in that. Can you give me an 
idea of who these countries are?
    Admiral Pandolfe. I would have to go back to CENTCOM to get 
the specific list, ma'am. I will be happy to forward them to 
you. Generally, I am most familiar actually with the third 
example which is the International Mine Countermeasure 
exercise. And that involved a lot of nations from the region, 
it also involved NATO allies, and I believe there was even some 
nations from the Far East. But I can get you the specific lists 
of which nations participated in each exercise.
    Ms. Hanabusa. Well, do you know off the top of your head 
which countries from the Middle East participated in these 
exercises?
    Admiral Pandolfe. Generally they are the Gulf States, and I 
would have to check whether Saudi Arabia participated or not.
    Ms. Hanabusa. So if you could forward that to me, to the 
committee and the committee will forward it, I would really 
appreciate it.
    Admiral Pandolfe. Yes, ma'am.
    [The information referred to can be found in the Appendix 
on page 73.]
    Ms. Hanabusa. Madam Ambassador, in reading your testimony, 
of course that is where we have the reference to ISIL as well 
as there is also the ``L'' is Levant or however you may 
pronounce it. And I also see that reference in terms of Syria, 
and I understand it is some kind of a geographical reference. 
But why is it now appearing in like ISIL and the reference to 
Syria. Is there any significance in the use of that word?
    Ambassador Patterson. Well, yes, because I think they have 
changed or rather expanded their focus to include Syria and--to 
include Syria. So it is not just Iraq anymore.
    Ms. Hanabusa. But doesn't it also geographically include 
Israel and other countries?
    Ambassador Patterson. Yes, ma'am.
    Ms. Hanabusa. So what is the significance of now referring 
to the context, like Iraq, for example, to have itself referred 
to with Levant at the end?
    Ambassador Patterson. Well, I think it refers to their 
aspirations to expand throughout the region. And let me say 
that is one reason we are working very intensely with Syria's 
neighbors, Jordan and Lebanon, in particular, the King is here 
this week and I am sure he will be talking to members of the 
committee, to shore up their counterterrorism capabilities and 
to improve the control of their borders.
    Ms. Hanabusa. So is it a correct statement to say that by 
the inclusion of this word that they are sort of asserting a 
different jurisdiction? Because my understanding is that it 
includes Cyprus, Palestine territories, the Palestinian 
territories, Israel, Jordan, Lebanon, and Syria, for example, 
that that is traditionally what it was. So are they somehow by 
calling themselves ISIL, Syria and Levant, saying this is 
really the region that we control or should control?
    Ambassador Patterson. I think that would be right, 
Congresswoman, that they have a vision of greater expansion. 
Yes.
    Ms. Hanabusa. So how does that play in with Israel being 
part of that, that area that they perceive to be within their 
territorial expansion?
    Ambassador Patterson. Well, let me stress that as far as I 
am aware, we have not seen any activity by this group in 
Israel, although Israel, of course, is the subject of security 
threats from elsewhere in the region. But I certainly--so let 
me just say that I would go back to what Ms. Slotkin said, that 
Israel's security is one of our highest national priorities and 
we will do everything possible we can to work with the Israelis 
to shore up their defenses and to share intelligence, I wanted 
to go back to that, to share intelligence on the broad range of 
threats in the region.
    Ms. Hanabusa. So do we as a country, when we agree to refer 
to Iraq, for example, ISIL, or we allow them to continue or we 
defer or we give them the credibility of using it in terms of 
their description of who they are now, are we somehow 
encouraging it or conceding just simply by the fact that, for 
example, it is found in your testimony, it is found in other 
references; are we giving some ground by doing that versus 
saying no, you are not going to refer to yourself that way?
    Ambassador Patterson. I wouldn't think so, Congresswoman. I 
would think we were just sort of recognizing the facts of the 
matter on that. They are a more expansive organization than 
they have been in the past and I think we are merely 
recognizing that fact.
    Ms. Hanabusa. But it is not an organization that everyone 
who is a member of is conceding that their membership within 
that group?
    Ambassador Patterson. No, certainly the countries involved. 
But the organization itself has a more aspirational--it is 
spreading, I think, to be blunt about it.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ambassador Patterson, you made the statement that we are 
going to be in these countries in force for decades to come a 
little while ago. Can you tell me specifically which countries 
you are talking about and what type of force you are talking 
about in that statement?
    Ambassador Patterson. Well, Congressman, I think it is not 
just military force, it is also economic force. I mean, we took 
down our flag in Afghanistan in 1989 and literally moved out. 
There was a lot going on elsewhere in the world, but it is not 
just our military force that matters, it is our investors, it 
is our educators, it is our assistance programs, and we are 
going to require very robust engagement by all elements of U.S. 
national power in these countries to stabilize them.
    Mr. Scott. Which countries specifically are you talking 
about?
    Ambassador Patterson. We can speak about almost any one of 
them, but let me take Egypt because I recently left Egypt. We 
are going to require--we are going to have to have American 
investment there, we are going to have to have a robust trade 
relationship, we are going to have to increase educational 
exchanges. There are only 3,000 Egyptian students in the United 
States. I think that is an embarrassment. So we want more 
educational activity, just for an example.
    So there are many ways we can engage with these countries 
that go beyond our military presence and in the long run are 
frankly just as important.
    Mr. Scott. I guess when we talk about these other 
countries, it is not that I question your abilities or the 
Secretary, or our abilities as a country to help things as much 
as I question our capacity and the capacity of the United 
States economy. If every dollar that we spend in interest on 
the national debt is a dollar that is going to come out of 
discretionary spending.
    And so I guess my next question would be for Secretary 
Slotkin. The DOD, we are involved in a lot of countries and a 
lot of conflicts, you are taking a lot of cuts in the 
Department of Defense. Do you think that you have the capacity 
based on the budget that you have today to carry out the 
mission for decades to come?
    Ms. Slotkin. I do. I mean, I would say to the Ambassador's 
point that the bilateral relationships that we have are the 
cornerstones of our approach in the region, and frankly the 
investment we make up in front in training their military, 
their security forces, and military education and civ-mil 
relations pays big dividends for us later on in preventing 
conflict, preventing spill-out of extremist groups, you name 
it.
    So I feel like the relatively small amount of money frankly 
that we spend on some of the programs the Ambassador is talking 
about that we do in non-conflict situations prevents the 
significantly more expensive operations, combat situations that 
we are still dealing with.
    So I do think that we are positioning. Frankly, you know, 
it won't be long enough until we have released our QDR 
[Quadrennial Defense Review] and you will see an enhanced focus 
on the importance of partnership and training ahead of a 
problem, building partner capacity ahead of a problem.
    Mr. Scott. Admiral, if I am correct in reading the 
Treasury's reports and where our money is going, we are 
spending more money in interest on the national debt than we 
are in military pay for our men and women in uniform. The 
projections are that those interest payments are going to 
continue to escalate at a fairly rapid pace. Any dollar that is 
paid in interest comes out of discretionary spending. Obviously 
the DOD gets about 50 percent of that.
    Again, do you have the equipment, the men, and the men that 
you need to protect this Nation?
    Admiral Pandolfe. Yes, sir. Today absolutely we do, and, as 
mentioned, particularly in this area, in the Asia-Pacific we 
are focusing our best resources. As we move forward we are 
going to have to be very careful to ensure that we maintain the 
capabilities and capacity that we need by making wise choices 
with investments.
    Mr. Scott. I would respectfully submit that the lack of 
investment right now in equipment and technology and the things 
that we are going to need to fight the battles that we are 
going to be in going forward, that maybe we should concentrate 
more on the United States than some of these countries.
    And quite honestly, Ambassador, if a country doesn't 
respect a person's religious freedom, if the leadership of a 
country doesn't trust their own people with religious freedom, 
then I don't see why we should think that we can trust the 
leadership of that country.
    Thank you.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you for 
holding this hearing and the witnesses for being here this 
morning.
    We have heard, you know, a lot of talk in the back and 
forth about lessons learned and whether or not in particularly 
the case of Iraq and as far as our credibility whether or not 
Iraq was abandoned. I think that was one of the statements that 
was made here.
    You know, one of the lessons that I certainly think we 
should reflect on was the statement by Secretary Gates, who is 
hardly an apologist for this administration as we have seen in 
recent weeks, that any Secretary of Defense who advises a U.S. 
President to get involved in a ground war in the Middle East 
ought to have their head examined.
    And so, you know, Ms. Slotkin, when the questions were 
posed to you earlier about Iraq and whether or not our 
credibility has somehow been damaged because of events that 
flowed since 2011, I mean you were intimately involved based on 
your resume with the transition that took place.
    And again, just to reiterate the point, because we had a 
number of hearings in this committee about the status of forces 
agreement negotiations. Again, the reason why the final outcome 
occurred was because of this issue of immunity of prosecution 
for our troops staying there.
    So, in other words, if a soldier from Norwich, Connecticut, 
without an immunity provision, you know, got picked up by the 
Iraqi military police or even civilian police, basically they 
were completely exposed to the criminal justice system or the 
military justice system of that country, which was unacceptable 
to both the Bush administrations and the Obama administration.
    I mean is that a correct accounting of the back and forth 
that took place?
    Ms. Slotkin. I think it is correct to say that regardless 
of administration, there are certain basic SOFA provisions, and 
trying our own people in our own courts is a basic tenet of any 
SOFA negotiation around the world.
    The Bush administration wasn't going to let our soldiers be 
exposed to the Iraqi courts and neither was the Obama 
administration. I don't believe that was the only issue. We 
certainly had a very complicated recent past with Iraqis, but 
that certainly was one issue.
    Mr. Courtney. Certainly in this committee, and I recall 
those hearings well, I mean that was a very bright line as far 
as any agreement moving forward.
    Ms. Slotkin. It was the single most difficult part of the 
original SOFA to negotiate. I was on the original team and it 
came down to the last couple of months and it was the single 
most controversial issue of the original SOFA signed back in 
2008.
    Mr. Courtney. And, again, as far as the other side of that 
negotiation, again it was a pretty adamant provision of the 
Iraqi negotiators, that they insisted on it, and in fact I 
believe there was even a vote in the Iraqi parliament that took 
place again sort of reiterating that position. I may not have 
that totally correct. But the bottom line is that it is 
important for people to remember that this didn't happen in a 
vacuum. That kind of comes with the territory when you are 
doing bilateral negotiations and you are fostering democracy 
and some of these things. Their position, you know, affects the 
outcome of negotiations.
    And Ambassador, you I know have a history in Afghanistan. I 
mean this issue of immunity from prosecution actually is not a 
stumbling block right now. I mean that is something that at 
least press reports suggest, the two sides have actually agreed 
on that. There is other issues that are hindering a completion 
of the agreement. But, again, just as an example, it is sort of 
a contrast, I mean how important that is.
    Well, again, maybe, Ms. Slotkin, you can----
    Ms. Slotkin. Sure. I mean this is a fundamental difference 
between where we were with Iraq in 2011 and where we are now 
with Afghanistan is that the people of Afghanistan, the 
parliamentarians of Afghanistan, the members of the loya jirga, 
they support an enduring presence.
    And we just didn't have the same facts on the ground in 
2011 in Iraq for a whole variety of reasons. And I think that 
you are right, we largely have the contours of an agreement, we 
just need the political will to get it signed, and we urge 
President Karzai to sign it as soon as possible.
    Mr. Courtney. Great. Thank you.
    Ambassador, you have mentioned the efforts in Syria to 
remove the chemical weapons and again there has been some 
progress with the production facilities. You know, there was an 
interesting report that we had about the U.S. Navy's 
participation in this process that they have actually got a 
container ship ready to go, the USS Ray.
    And again, I was wondering if you could just sort of talk 
about the fact that, again, we have to get the pace moving, but 
the fact is, is that our military is doing an outstanding job 
in terms of getting this, in my opinion, great accomplishment 
completed.
    Ambassador Patterson. Yes, Congressman. This is really an 
important advance. It was the biggest threat to the most number 
of Syrians, and, importantly, it was the biggest threat to 
Syria's neighbors as well. So it was very important to address 
this issue.
    The removal has stalled and we are doing everything we can 
to push the Syrians to remove the weapons as soon as possible. 
It has been a great example of international cooperation. But 
it is important to realize too that the machines which actually 
make the materials, mix the materials, have already been 
removed, so Syria's capacity to actually deploy a chemical 
weapon is very, very greatly reduced.
    The Chairman. Thank you.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chair.
    I have got a number of questions so I might cut off the 
speakers and I will apologize in advance.
    Admiral, first of all, real quick on MRAPs [Mine Resistant 
Ambush Protected vehicles] and the situation in Fallujah, Anbar 
Province, and everything else, that it is not just the 
helicopters, it is also the fact that IEDs [improvised 
explosive devices] are a big problem. We had a committee 
hearing that said they are going to chop up a number of them 
that are coming out of Afghanistan. I wonder if this might be 
one of the carrots that we could use with the Maliki 
government. I don't trust his government, particularly the 
relations with Iran. If you could briefly comment on that.
    Admiral Pandolfe. My understanding is that we are not 
cutting up the MRAPs as was previously discussed.
    Mr. Cook. That policy has changed?
    The Chairman. Admiral.
    Admiral Pandolfe. Yes, I will go back and check on that, 
but my understanding is that has changed.
    Mr. Cook. Because we----
    Admiral Pandolfe. Yes.
    Mr. Cook [continuing]. Were briefed, and it wasn't that 
long ago----
    Admiral Pandolfe. Yes, sir.
    Mr. Cook [continuing]. And I am there as, you know, a dumb 
grunt----
    Admiral Pandolfe. Right.
    Mr. Cook [continuing]. That always took his equipment out 
saying, what in God's--we spent all this money and everything 
like that and okay----
    Admiral Pandolfe. I believe we have revisited that, and let 
me go back and double-check that for you.
    Mr. Cook. Okay.
    Admiral Pandolfe. Regarding the Iraqis, we are responding 
to the lists of capabilities that they have given us. They have 
told us what they think they need to recapture the areas that 
are contested.
    Mr. Cook. Particularly Fallujah?
    Admiral Pandolfe. Yes, sir.
    Mr. Cook. And when they have tried, they have really gotten 
whacked pretty bad, haven't they?
    Admiral Pandolfe. I don't want to comment on what their----
    Mr. Cook. Okay.
    Admiral Pandolfe [continuing]. Operational plans are. But 
they have given us a list of the capabilities they feel they 
need and we are moving swiftly to provide those.
    Mr. Cook. Okay, could I switch to the Ambassadors real 
quick, on the Kurds. We haven't heard much about the Kurds. I 
know they have the pipeline, things are looking better, 
obviously tremendous in regards to their economy. But I am 
afraid that they might get thrown under the bus again as they 
have in the past.
    What is the policy towards the Kurds and the fact that 
oftentimes they get left in the dust real quickly?
    Ms. Slotkin. Well, again, I think the Kurds now more than 
ever are integrated into the State of Iraq. And while I think 
given their history there will always be concerns about them 
being quote ``left in the dust'' as you say, they are a part of 
the senior leadership of the government. They have come to some 
important agreements with the central government.
    Mr. Cook. Okay. And their relationship with Turkey has 
obviously improved since we had the terrorists----
    Ms. Slotkin. Significantly. I mean, if you would have told 
me as an Iraq expert a decade ago that they would have had the 
relations that they have with Turkey, I would have frankly 
laughed. I mean it is pretty----
    Mr. Cook. I agree 100 percent.
    Moving on real quick, a couple of Gulf States that I have 
real problems with and I won't mention, in terms of money going 
to Al Qaeda, and it is kind of wink-wink, nod-nod, or there has 
been reports of that, and these states are in our military--you 
know, it is as if they get a free ride on that. Is that true? 
And I am talking about one in particular and you might----
    Ambassador Patterson. Well, no, sir, it is not true. There 
have been huge efforts over the years by our Treasury 
Department and others----
    Mr. Cook. Maybe with the government, but they allow certain 
elements--I have got to move quickly, I am sorry.
    Ambassador Patterson. Let me be quick. They don't allow it. 
They do try to shut it down. We try and shut it down.
    Mr. Cook. But are there are citizens in that country that 
do funnel money to Al Qaeda?
    Ambassador Patterson. They manage to fund these groups in 
places like Pakistan and Syria, of course. They are trying to 
restrain it, but, of course, it hasn't been 100 percent.
    Mr. Cook. Okay. Going back to--I just want to make a real 
quick comment in regards to Iran. I am sorry, and I appreciate 
your service and everything and the Intel Community. Hey, I am 
a grunt, infantry. You know, you never, ever, ever, trust the 
intel because it is the grunts, my Marines that had to go in 
there and get the job done. And what happens? You get killed. 
And the best example going back was the Marine barracks in 
Lebanon.
    And remember that group, Hezbollah, and who were they 
associated with? Iran. You talk to most of the military, at 
least the ones, the one country that keeps them awake at night 
is Iran, Iran, Iran. And to say we got a year, I don't believe 
it.
    So, at least from one Congressman, I don't share that 
optimism. I have been to Israel. They are scared to death of 
what is happening there and it will be too late. And you are 
right, I don't think we can stop it unless we do have a good 
line in the sand that we are going to enforce.
    I yield back. Thank you.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. If I could follow up, this has been explored a 
great deal. I just want to follow up on a couple points about 
Iran and what we do about them. I mean, if our position is we 
just can't know, no matter what we do, we can't know, you know 
I guess isn't the only policy choice at that point to just 
declare war and get it over with? I mean, I am just not 
understanding where it is that the folks on this side of the 
aisle think that we ought to go with this.
    Now, I will for a brief moment explain where it is that we 
are going with this that makes sense, and that is the sanctions 
were brought about to force Iran to the conclusion that 
building a nuclear weapon was not in their best interests.
    In fact, you make a pretty powerful argument that the worst 
thing that Iran has done over the course of the last decade is 
pursue a nuclear weapon, because they were up to all manner of 
different malfeasance short of nuclear weapon, but some of that 
was tough to establish, it was tough to get our allies on 
board. But when they started pursuing a nuclear weapon our 
allies understood, gosh, even Russia understood, this was not a 
very good thing, so we were able to put crippling and crushing 
sanctions on them in a bipartisan way that brought Iran to the 
conclusion that they better talk.
    And all of our intel shows us that they have not made the 
decision to build a nuclear weapon. In fact, someone said to 
me, well there is no evidence that that is true. I said I first 
heard that Iran was 6 months from getting a nuclear weapon in 
2005. So what evidence is there that they have not decided to 
build one? They don't have one, all right? They were 6 months 
from it in 2005. If they wanted it, they would have it. They 
have not decided to build that weapon because they are not sure 
it is in their best interest to do so. So our policy is to keep 
the crippling sanctions on them.
    And one of the things that was said that just really 
disturbed me was the notion that Iran is open for business as a 
result of this 6-month deal. Pay some attention to what is 
actually in the deal. All that is in there in terms of 
sanctions relief is to release a small amount of Iranian money 
that we have been holding. We are holding well over $100 
billion, and I believe we are releasing somewhere between 4 and 
6 billion. All of the other sanctions on their oil industry, on 
their financial services industry, all of those other sanctions 
are kept in place and are not going to be removed until we get 
a final agreement.
    So if our position is, oh, goodness gracious, we can't 
possibly know, they might build it we can't trust them, then 
have the guts to say not just that we should have the option on 
the table, but that you are in favor of us bombing Iran right 
now today because we can't know.
    I think that is wrong. I think it is a crazy policy, it is 
the wrong way to go, because we do know a great deal about what 
they are up to. The sanctions policy is our best hope to 
prevent them from getting a nuclear weapon. So these questions 
are pushing us in a direction that makes no logical sense. That 
is more of a statement than a question, obviously.
    But help me out here, Ms. Slotkin. Is that not fairly 
accurate? And also it is clear, our policy is if everything 
else fails, we will use military force, but given the 
consequences of that we would dearly love to stop everything 
else from failing. So lay that out a little bit more clearly 
for us, because I think there is a clear policy here this 
committee is missing.
    Ms. Slotkin. Thank you, sir. I think that is accurate. That 
is certainly the way we see it. I mean I think it is not crazy 
to have questions of trust with the Iranians.
    Mr. Smith. Sure.
    Ms. Slotkin. That is a natural normal reaction to events 
that happened, God, for the past 30 years, with today being the 
anniversary, frankly.
    Mr. Smith. I think, if I may, our policy reflects that lack 
of trust.
    Ms. Slotkin. Exactly. And I think that is why the interim 
agreement that is on the table right now is not about trust and 
just taking them at their word, it is about verification.
    And my only point is if we were able to do it with the 
Soviet Union, right, if we were able to negotiate with others 
in our past who had every reason not to trust, with the right 
verification standards in place, I think we are able to make 
progress and we need to allow diplomacy a chance to succeed. 
Certainly from the Defense Department's perspective, I would 
always rather have diplomacy be the order of the day than be 
forced to take military action.
    Mr. Smith. Thank you.
    The Chairman. I don't know that I would use Russia as an 
example of negotiating because we know that they have broken 
treaties.
    And I think probably one of the things that leads us to the 
lack of trust is why do they have to do this work under a 
mountain? Why don't they just open it up? If they are just 
doing nuclear energy for energy, why do they have to bury it 
where it is away from sight? Where is the transparency?
    Mr. Smith. Again, Mr. Chairman----
    Ms. Slotkin. Mr. Chairman----
    The Chairman. We know that there are over 10 nations that 
use nuclear power but don't do the enriching that they are 
doing. So you know, there are some very solid reasons for 
distrusting them.
    Mr. Smith. Mr. Chairman, as I said, the cornerstone of our 
policy is we don't trust them, okay? We are not arguing--nobody 
is arguing in terms of how we negotiate this deal that we ought 
to just close our eyes and trust them. That is why we have the 
sanctions. That is why we have the back and forth.
    Yes, absolutely Iran has been underhanded in this. What 
they want, they want to be able to build a bomb without having 
international repercussions. That is what they want. And they 
have been sort of dancing around for a decade trying to figure 
out how to do that, and it has been our job and the 
international community's job to say you can't. You know, if 
you go down this road the price you will pay will be steep. So, 
no, we don't trust them at all and we shouldn't.
    The Chairman. And I think where we recently with this 
interim deal where we have the problem is the things I 
mentioned, and the thing that we put the sanctions on that 
brought them to the table, if we had kept those sanctions a 
little bit longer we may have gotten them to give up the 
enrichment, if that was what we really wanted.
    Mr. Smith. We haven't given up the sanctions. That is the 
whole point. What do you mean if we kept them a little longer? 
We have not given them up.
    The Chairman. Yes, we did. You just said we gave them up $4 
billion to $6 billion. In other words----
    Mr. Smith. And a whole raft of other sanctions are very 
firmly in place that are continuing to cripple their economy.
    Let's ask Ms. Slotkin for her opinion. Is their economy any 
less crippled because we released a small amount of money?
    Ambassador Patterson. No. Let me try--Mr. Chairman, one 
element that I think, it is not just our intelligence we are 
depending on, although I think it is pretty good in this 
instance. It is also the enhanced inspections by the IAEA that 
were a critical element of this interim agreement. They are 
going to be in some of these facilities every single day and 
others on a much more regular basis.
    The Chairman. Okay. You know, this is already done and we 
are not going to undo it. We have had the same briefings and we 
just look at it a little bit differently, and I don't think it 
is because, Democrat or Republican.
    Ms. Slotkin. Can I just add one--I am sorry, sir.
    The Chairman. No.
    Ms. Slotkin. Okay.
    The Chairman. Let me get to the members who have been 
sitting here very patiently to ask their questions.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. I appreciate you all 
being here today. If I can, we will go back to Iraq for a 
second.
    You know, I think obviously the people of Fallujah and 
Anbar Province are not happy to see Al Qaeda back in Iraq, and 
you made some mention, Ms. Slotkin, that Al Qaeda probably 
would have resurged there in some way with or without our 
presence.
    Ms. Slotkin. My point was Al Qaeda frankly was at its 
strongest right as we had the largest single number of troops 
in the country at a time, so 170,000 troops back in you know 
2007 and we have got the highest rate of attack that we saw 
from Al Qaeda during the course of the war.
    Dr. Wenstrup. And I can appreciate that. I was there 2005 
to 2006 you know leading up to that buildup and understand the 
effort that that takes. But I am just concerned that you may 
feel, and correct me if I am wrong, that a U.S. presence would 
have no deterrence.
    Ms. Slotkin. I think the presence we were always talking 
about would be a train-advise presence, largely based out of 
Baghdad, right. The numbers we were talking about at the time 
were something around 10,000. So that is obviously not going to 
be able to have a geographic spread the way 170,000 troops had 
at the height of the surge. So I think while we would have been 
able to advise and assist in probably a more robust way, we had 
already turned over lead to the operations to the Iraqis a year 
and a half, 2 years before then.
    So I don't think that we--our presence would have been the 
deterrent. I think we would have been able to provide more 
expertise and more training than we are currently doing.
    Dr. Wenstrup. You know, I tend to think our presence can be 
a deterrent. When I traveled to the Kurdish area, for example, 
they were pretty pleased there has been an American presence in 
their area since 1991, and I think that they probably, correct 
me if I am wrong, I don't know what kind of say they had at the 
table during the discussions on the SOFA, but I think they 
would have been more than happy to have an American presence in 
the Kurdish region of Iraq.
    Did they have a say at the table during this conversation? 
I agree with what Mr. Courtney was bringing up about, you know, 
concern for our troops and protection for our troops. I 
understand that part completely. But I find it hard to believe 
that they would not have wanted our presence there.
    Ms. Slotkin. Certainly different groups, and Iraq is made 
up of a large number of different groups, had different views 
on whether there should be a presence, a follow-on presence 
after 2011. There were Kurdish members of the original SOFA 
negotiating party. There were Kurdish members of parliament 
that voted on the SOFA when it passed back in 2008. And I think 
largely the Kurdish population tends to be pretty pro-American 
and would have supported us staying.
    I don't think that speaks for everyone in the Kurdish 
territories, but I think there are also plenty of groups around 
the country, Shia, Sunni, and others who were supportive. They 
voted to keep us there. So the Kurds certainly weren't the only 
ones at the time who supported it.
    Dr. Wenstrup. With what is going on now, do you think they 
have any regrets?
    Ms. Slotkin. I think you know, as we were talking about, if 
you go to Erbil, I am not sure where you were in the Kurdish 
areas, if go there, there are just cranes everywhere. They 
are----
    Dr. Wenstrup. I was at Sulaymaniyah.
    Ms. Slotkin. Okay. So construction boomed, their economy is 
doing exceptionally well, they are signing important deals with 
their neighbors. They still have a senior role in the 
government. So I think that the Kurdish areas are doing 
particularly well and I think that is without us signing a 
follow-on agreement in 2011.
    Dr. Wenstrup. Admiral, I have a question. Strategically, 
what benefit do you think it would have had if we had a 
stronger presence in Iraq at this time? For the entire region, 
not just for Iraq?
    Admiral Pandolfe. Well, I don't want to speculate on what 
might have happened in Iraq. What I would like to focus on is 
Afghanistan and that we have, as Ms. Slotkin has underlined and 
Ambassador Patterson, we believe that the signing of a BSA 
[bilateral security agreement] there which reflects the will of 
their people and the international community, quite frankly, 
will allow us to maintain the presence, when I say ``we'' I 
mean the NATO presence, to help that nation continue toward a 
better future.
    So looking forward it is our hope that Afghanistan, the 
president of Afghanistan does sign the BSA to allow the 
international community to remain in that country, both for 
defense purposes and to Ambassador Patterson's point for 
developmental purposes, because the international community 
presence will facilitate the flow of funds for both defense and 
for development.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and I want to thank 
this panel for being here.
    I also really did enjoy the conversation between our 
ranking member and the chairman. I kind of liked that free-
flowing dialogue. It is good.
    You know I hear a lot about obviously trust as it relates 
to Iran. I was in Iraq in 2011 and had two sons in combat in 
Iraq in 2011 as they were transitioning out and I do remember 
that one night I was there an IRAM [improvised rocket-assisted 
missile] attack took place and killed a number of our troops. 
For those who don't know what an IRAM is, that is an Iranian 
warhead. The only place you can get an Iranian warhead is from 
Iran. And I worry about where we are in Afghanistan now just 
because Iran likes to play everywhere, and we see that across 
the board.
    I think what a lot of folks are worried about, and 
particularly with Iran, you hear all kinds of estimates, so I 
get all the briefings, I sit on the IETC [Subcommittee on 
Intelligence, Emerging Threats and Capabilities], is the fact 
that once if they are successful in obtaining a nuclear weapon, 
we are going to be in the same position that we are today with 
North Korea. There are a whole lot of reasons how they got it, 
and we are going to be facing the same dilemma that we have 
today in North Korea but you know with a different state actor. 
And I guess that is why a number of us are concerned that we 
are going to make the same mistakes in this particular issue 
with Iran and particularly with our good friend and ally, with 
Israel, that could face the brunt of it.
    I just don't know. We hear about sanctions. I heard the 
ranking member talk about sanctions. You know the Senate was 
just talking about increasing sanctions on Iran and I think 
they have paused that because of a lot of lobbying by the 
President in regards to not doing that. But why do you think 
that they were so, on both sides of the aisle in a bipartisan 
way, why do you think that they wanted to increase sanctions on 
Iran if they think that this is the right direction where we 
are going today with Iran in regards to them saying that they 
really don't want a nuclear weapon? Why do you think the Senate 
was taking that position? Do you have any idea? I am sure it is 
not just to block or, you know, cause problems for the 
President, because it was the Democrats who were pushing that.
    Ambassador Patterson. Well, no, sir. I mean, I think as we 
have said, there is an enormous suspicion based on years of 
empirical data about Iran's intention. But let me stress that 
this nuclear--that Iran's ability to acquire a nuclear weapon 
is an existential threat to us and it is an existential threat 
to critically Iran's neighbors. So that has got to be our first 
priority.
    And these sanctions, these crippling sanctions, the 
reduction of their capacity, their currency totally tanked, has 
enabled us to get to the table and try to negotiate this and to 
cap and to freeze their paths to a nuclear weapon while these 
negotiations are underway.
    Mr. Nugent. I mean, they are in control of this. I mean 
they could easily reverse this in regards to sanctions if they 
did what? What could they do today to reverse that? Is there 
something they could do today to reverse those sanctions?
    Ambassador Patterson. Well, yes, because they could 
negotiate an agreement. There is an interim agreement and we 
have begun to negotiate. They could--there is, yes, a whole----
    Mr. Nugent. Couldn't they just walk away from what they are 
doing and still do the development they wanted to from a 
peaceful side, but could they not reverse this very simply if 
they wanted to, if they really didn't have a goal of creating a 
nuclear weapon?
    Ambassador Patterson. Well, if they walked away from the 
negotiations? I am not quite sure I follow you, sir.
    Mr. Nugent. No, what I am saying could they not get the 
international partners and the United States to reverse their 
decision on those crippling sanctions if they did one thing, 
and clearly did the things that would be required to walk away 
from a nuclear weapon? Because that is really the name, is the 
reason we have these sanctions.
    Ambassador Patterson. Well, sure they can lift the 
sanctions if they move in that direction, and that is what this 
negotiation is all about. It is an international negotiation 
with a number of countries, and there is a lot of U.N. Security 
Council resolutions that are at play too. So yes, as the 
negotiations go on, of course we hope that they will walk away 
from it.
    Mr. Nugent. And I will be honest with you, I am the last 
one that would want to see military action because I happen to 
have three sons that currently serve, and they are the brunt 
of--when we sit here and talk about military action, there is 
really a human face behind that and I want to make sure that 
before we do something that we, you know, allow the sanctions 
to work, but also allow diplomacy to work.
    But at the end of the day, the Iranians have control. They 
control their fate in regards to what they do and the course of 
action that they have taken and are taking. And so while I 
appreciate everything that you do, I think that until they 
decide that they want to get out from underneath these 
sanctions, it is going to continue, because they have 
underlying reasons to do that.
    And with that, Mr. Chairman, I yield back. I appreciate 
your time.
    The Chairman. The gentleman's time has expired. No other 
questions, this hearing will stand adjourned. Thank you very 
much for your presence here.
    [Whereupon, at 11:58 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 11, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 11, 2014

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 11, 2014

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MS. HANABUSA

    Admiral Pandolfe. Eagle Resolve Participating Countries: Bahrain, 
France, Iraq, Jordan, Kuwait, Lebanon, Oman, Qatar, Saudi Arabia, 
United Arab Emirates, United Kingdom, and the United States.
    Eager Lion Participating Countries: Bahrain, Canada, Czech 
Republic, Egypt, France, Iraq, Italy, Jordan, Kuwait, Lebanon, Poland, 
Qatar, Saudi Arabia, Turkey, United Arab Emirates, United Kingdom, 
United States, and Yemen.   [See page 23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 11, 2014

=======================================================================

      
      

                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. Does it remain U.S. policy that all options, including 
military force, remain on the table to prevent Iran from developing a 
nuclear weapon?
    Ambassador Patterson. This Administration views the prospect of a 
nuclear-armed Iran as unacceptable and is committed to preventing Iran 
from developing a nuclear weapon. The President has been consistent: 
the United States is committed to using all the necessary elements of 
American power to prevent Iran from acquiring a nuclear weapon. 
Although we continue to believe that there is time and space for a 
diplomatic solution to Iran's nuclear program, as the President has 
said, all options remain on the table.
    Mr. McKeon. What are we doing to demonstrate to Iran that we are 
ready and willing to use force if necessary?
    Ambassador Patterson. This Administration has made non-
proliferation one of its top priorities. We view the prospect of a 
nuclear-armed Iran as unacceptable and are committed to preventing Iran 
from acquiring a nuclear weapon. We have implemented the strongest, 
most comprehensive sanctions regime to date against the Iranian 
government.
    The United States is committed to using all the necessary elements 
of American power to prevent Iran from acquiring a nuclear weapon. 
Although we continue to believe that there is time and space for a 
diplomatic solution, as the President has said, all options remain on 
the table.
    Mr. McKeon. Iran is in a position where it could break out and 
produce enough highly enriched uranium for a weapon in less than two 
months. Is the U.S. military prepared to act in such a narrow timeframe 
to respond to an Iranian breakout attempt?
    Ambassador Patterson. I am not going to speculate about military 
action or discuss military planning. President Obama has pledged 
repeatedly that all options remain on the table.
    Mr. McKeon. What impact did the lack of U.S. military action in 
Syria have on Iran's view of the credibility of the U.S. threat of 
force to stop its nuclear quest?
    Ambassador Patterson. When the President stated his willingness to 
order a limited strike against the Asad regime in response to the 
brazen use of chemical weapons, he did not do so lightly. The purpose 
of such a strike, as the President said, would have been to deter and 
degrade the regime's ability to use chemical weapons.
    The threat of force in Syria remains credible because it is in the 
security interest of the United States and the world to meaningfully 
enforce the international prohibition against use of chemical weapons. 
The President has made it clear that all options remain on the table. 
However, as the President said, he preferred a diplomatic resolution to 
this issue and we are implementing the agreement reached in Geneva in 
September. This diplomatic resolution will meet our objectives by 
ensuring that the regime can never again deploy these terrible weapons.
    Likewise, the Administration seeks a diplomatic resolution to the 
concerns of Iran's nuclear program. The Administration is committed to 
the nonproliferation of weapons of mass destruction and views the 
prospect of a nuclear-armed Iran as unacceptable and remains committed 
to preventing Iran from developing a nuclear weapon.
    The United States is committed to using all the necessary elements 
of American power to prevent Iran from developing a nuclear weapon. 
Although we continue to believe that there is time and space for a 
diplomatic solution to Iran's nuclear program, as the President has 
said, all options remain on the table.
    Mr. McKeon. What steps are the United States taking to mitigate the 
impact of unfolding Middle East events on Israel's QME?
    Ambassador Patterson. The United States is committed to helping 
Israel maintain its QME, defined as Israel's ability to counter and 
defeat credible military threats from any individual state, coalition 
of states or non-state actors, while sustaining minimal damage or 
casualties. This policy was written into law in 2008, but it has long 
been a fundamental tenet of U.S. policy and a cornerstone of the U.S.-
Israel security relationship.
    The Administration is regularly assessing the capabilities of the 
region's militaries and non-state actors to ensure Israel maintains its 
qualitative military edge (QME). We are also taking full advantage of 
the consultative and political mechanisms currently in place to respond 
to and act on Israel's concerns.
    In addition to fulfilling the requirements of the Naval Vessel 
Transfer Act of 2008, the United States protects Israel's QME in a 
number of important ways. 1) Israel is the leading recipient of Foreign 
Military Financing (FMF). In FY 2013, which marked the fifth year of a 
10-year, $30 billion MOU, Israel received $2.94 billion in FMF, 
slightly less than the $3.1 billion request level due to sequestration. 
We requested the full $3.1 billion in FY 2014; 2) Israel is the only 
country authorized to use one-quarter of its FMF funding for domestic 
defense procurement, which provides significant flexibility in meeting 
immediate procurement needs and supporting the Israeli defense 
industry; 3) Israel has privileged access to advanced U.S. military 
equipment, such as the F-35 Joint Strike Fighter and, more recently, 
the MV-22 Osprey; 4) the United States is cooperating with Israel, 
using DOD appropriated funding, to develop a comprehensive air and 
missile defense system that protects Israel against ballistic and 
cruise missile threats; and 5) the United States has provided 
additional funding outside of State's annual FMF request to support the 
expansion and acceleration of the Israeli-developed Iron Dome short-
range rocket defense system. In FY 2011, Congress provided an 
additional $205 million for the procurement of additional Iron Dome 
systems. We provided an additional $70 million in FY2012 for Iron Dome 
systems and another $195 million in FY 2013 and $220M in FY 2014. The 
Administration has requested $175.9M for FY 2015.
    Mr. McKeon. How is the United States ensuring that arms sales to 
the region do not undermine Israel's QME?
    Ambassador Patterson. The Administration has sought to enhance 
security cooperation with and between U.S. partners in the Middle East. 
The United States is engaged in extensive efforts to ensure its 
partners have credible military capabilities to respond to potential 
regional threats. An essential part of this approach is providing our 
partners access, when appropriate, to military technologies critical to 
their national defense. These sales will also allow U.S. security 
partners to bear a greater share of the burden for regional security.
    Enhancing the capabilities of our Arab partners does not come at 
the expense of Israel's security. This administration is committed to 
strengthening security cooperation with Israel and safeguarding its 
qualitative military edge (QME). We do not proceed with the release of 
U.S. defense articles or services that could pose a risk to our allies 
and partners or compromise regional security in the Middle East.
    Israel remains, by a significant margin, the leading recipient of 
foreign military financing and the Israel Defense Forces enjoy 
privileged access to the most advanced U.S. military equipment, such as 
the F-35 Joint Strike Fighter and the V-22 Osprey.
    Mr. McKeon. Do you share Director Clapper's concern about the 
threat foreign fighters in Syria pose to the United States or our 
allies like Israel? How are we addressing this potential threat?
    Ambassador Patterson. The U.S. government is extremely concerned by 
the threat posed by foreign fighter travel to Syria and potential 
implications for broader regional stability as a result. Furthermore, 
we are worried about the potential for these fighters, some of whom 
have connections with al-Qa'ida elements, to plan for and conduct 
attacks outside Syria, particularly against U.S. and other Western 
interests.
    We have been in close consultation with our partners in Europe and 
the Middle East on this matter. Effective coordination and 
collaboration with these partners is crucial in mitigating foreign 
fighter flows. Our discussions with partners are focusing on enhancing 
information sharing, border security measures to deny departure or 
entry of known or suspected extremist travelers, effective 
watchlisting, law enforcement cooperation, and measures to counter 
violent extremist messages and recruitment. We plan to intensify this 
engagement over the coming months.
    Mr. McKeon. What is the United States doing to stop the flow of 
foreign fighters to Syria?
    Ambassador Patterson. We have been in close consultation on this 
matter with our partners in Europe and the Middle East, particularly 
over the past year. Effective coordination and collaboration with these 
partners is crucial in mitigating foreign fighter flows. To that end, 
the State Department has been leading U.S. interagency outreach with 
key partners in Europe and the Middle East. Our discussions are 
focusing on enhancing information sharing, border security, and law 
enforcement cooperation, in addition to efforts to counter violent 
extremist messages and recruitment.
    Mr. McKeon. What challenges do you foresee in Lebanon given the 
increasing incidents of violence across the country? How can the United 
States minimize the threat of violence aimed at Israel from its 
northern border?
    Ambassador Patterson. U.S. policy in Lebanon is focused on 
bolstering Lebanon's stability and sovereignty and countering extremist 
influences, both foreign and domestic. Lebanon has faced a rising tempo 
of terrorist attacks in the last six months that have killed and 
wounded hundreds of civilians across the country. These attacks are 
directly related to the spillover of the Syria crisis into Lebanon.
    Another challenge is that Lebanon currently hosts almost a million 
refugees from Syria, and more enter Lebanon every day. These refugees, 
who live in communities across the country, strain the basic 
infrastructure of the nation as well as tax local municipalities' 
abilities to scale up services to meet rising needs.
    Increasing sectarian violence and a steady influx of refugees from 
Syria threatens Lebanon's stability. It is imperative that we continue 
our assistance to and partnership with the Lebanese Armed Forces (LAF) 
and Internal Security Forces (ISF); our long-standing, community-based 
USAID programming; our strong support for moderate leaders, such as 
President Michel Sleiman; our continuous engagement with mainstream 
political actors, including March 14 leaders; and our whole-of-
government approach to countering Hizballah activity around the world.
    Our security assistance to the LAF and ISF is intended to develop 
functioning, non-sectarian state institutions that gain respect from 
all Lebanese citizens in order to show the Lebanese people that they do 
not need militias for protection or to advance their political aims. 
Sustained U.S. support, particularly in the face of increasing domestic 
and regional tensions, has maintained and improved the LAF's 
capabilities as a national security force. A stronger LAF would 
contribute to stability on Lebanon's border with Israel, help mitigate 
the spillover effects of the violence in Syria, and serve as an 
increasingly effective counterweight to Hizballah.
    Working closely with the United Nations Interim Force in Lebanon 
(UNIFIL), the LAF's performance in southern Lebanon has added to 
stability along the Blue Line with Israel. UN Security Council 
Resolution 1701 calls upon Lebanon to disarm Lebanon's militias--a goal 
we support through our training and equipping of the LAF and the ISF as 
the sole legitimate defense forces in Lebanon. Part of UNIFIL's mission 
is to keep the Blue Line secure, and it also trains with the LAF to 
increase its capability to monitor the border and provide security. The 
LAF is not yet fully able to provide security throughout the entire 
area under UNIFIL's mandate, but with our assistance, further UNIFIL 
training, and other international support, the LAF's capabilities are 
improving.
    Mr. McKeon. Does it remain U.S. policy that all options, including 
military force, remain on the table to prevent Iran from developing a 
nuclear weapon?
    Ms. Slotkin. Yes. Although diplomacy remains the preferred means to 
resolve international concerns regarding Iran's nuclear program, all 
options--including military option--remain on the table to prevent Iran 
from developing a nuclear weapon.
    Mr. McKeon. What are we doing to demonstrate to Iran that we are 
ready and willing to use force if necessary?
    Ms. Slotkin. Iran is well aware of our force presence and the 
significant capabilities of the U.S. military in the region. We have 
about 35,000 forces deployed in and immediately around the Gulf region. 
We have over 40 ships in the broader Middle East region, to include a 
carrier strike group. We also have deployed an array of missile defense 
capabilities, advanced intelligence, surveillance and reconnaissance 
assets, as well as some of our most sophisticated aircraft. Our assets 
conducted approximately 50 transits through the Strait of Hormuz just 
during the last six months of 2013. Finally, our forces and personnel 
conducted and participated in over 50 multilateral and bilateral 
training exercises in the broader Middle East region last year. All of 
these serve as a constant reminder that the United States is ready and 
willing to use force to advance its core interests.
    Mr. McKeon. Iran is in a position where it could break out and 
produce enough highly enriched uranium for a weapon in less than two 
months. Is the U.S. military prepared to act in such a narrow timeframe 
to respond to an Iranian breakout attempt?
    Ms. Slotkin. Given this is an open forum, let me say simply that I 
am confident the U.S. military is ready and able to respond quickly and 
decisively to a variety of contingencies around the world, including 
one involving Iran, if necessary.
    Mr. McKeon. What impact did the lack of U.S. military action in 
Syria have on Iran's view of the credibility of the U.S. threat of 
force to stop its nuclear quest?
    Ms. Slotkin. The Intelligence Community is best positioned to 
answer this question. However, it was the credible threat of military 
force that helped bring about the diplomatic resolution on chemical 
weapons elimination in Syria. Our preference is to resolve issues 
through diplomacy, but the United States is prepared to execute 
military action should it become necessary.
    Mr. McKeon. What steps are the United States taking to mitigate the 
impact of unfolding Middle East events on Israel's QME?
    Ms. Slotkin. As Secretary Hagel has said, ``Our commitment to 
Israel's security is ironclad and unyielding.'' In the midst of the 
uncertainty and instability that has plagued the Middle East in recent 
years, the Department of Defense has worked diligently to ensure that 
Israel's qualitative military edge is maintained. In addition to 
providing $3.1 billion in Foreign Military Financing (FMF) each year--
the most FMF provided to any country in history--the United States has 
made sure that Israel has access to the most advanced military 
capabilities possible, including the F-35 and the V-22 Osprey. Access 
to these types of advanced capabilities, combined with an unprecedented 
level of FMF to purchase them, will ensure that Israel's qualitative 
military edge is maintained for the next generation.
    Mr. McKeon. How is the United States ensuring that arms sales to 
the region do not undermine Israel's QME?
    Ms. Slotkin. The cornerstone of the U.S. security assurance to 
Israel is the United States' support to Israel's qualitative military 
edge (QME). Israel must have the ability to defeat any adversary--
anytime, anywhere. As you know, the importance of ensuring Israel's QME 
is not just based on shared values and interests, but is also based on 
U.S. law. This law provides that any proposed sale or export of defense 
articles or services to the Middle East will include a determination 
that the sale or export will not adversely affect Israel's QME. Working 
with the Department of State, the Department of Defense will continue 
to ensure that, in accordance with this law, arms sales to the Middle 
East will not undermine Israel's QME.
    Mr. McKeon. Do you share Director Clapper's concern about the 
threat foreign fighters in Syria pose to the United States or our 
allies like Israel? How are we addressing this potential threat?
    Ms. Slotkin. I agree this issue is of concern, both to the United 
States and our partners in the region, including Israel. We are 
monitoring this issue closely and working with partners in the Middle 
East to address this threat. We are providing assistance to Lebanon and 
Jordan to strengthen their ability to secure their borders, including, 
for example, by providing equipment and training to supplement the 
Jordan Border Security Program. We are also working with Turkey and 
Iraq to determine how to stem the flow of foreign fighters into the 
region.
    In addition, DOD will continue to support the efforts of other U.S. 
departments and agencies to strengthen elements of the moderate Syrian 
opposition so they can better degrade terrorists' ability to attack the 
homeland and U.S. interests abroad.
    Mr. McKeon. What is the United States doing to stop the flow of 
foreign fighters to Syria?
    Ms. Slotkin. We are working with our partners in the region and our 
European allies, many of whom share our concerns on this issue, to 
develop the most effective options to stem the flow of fighters into 
and out of Syria.
    To that end, we are supporting Syria's neighbors in enhancing their 
border security, and have provided assistance to both Lebanon and 
Jordan; we are working with Turkey and Iraq to determine how we can 
more effectively help those nations deal with foreign fighters crossing 
their borders. We are also closely coordinating with Israel to make 
sure Israel can defend itself against violent extremist threats in 
Syria.
    The Department is working with our interagency and international 
partners to organize our efforts to monitor the activities and 
movements of extremists in the region, and enable U.S. and 
international efforts to disrupt foreign fighter flows and potential 
extremist attacks. The whole of the U.S. government is coordinating 
closely on measures we can take to support this top priority as well as 
Ambassador Brafke, who was recently named as State's Senior Advisor for 
Partner Engagement on Syria Foreign Fighters.
    Mr. McKeon. What challenges do you foresee in Lebanon given the 
increasing incidents of violence across the country? How can the United 
States minimize the threat of violence aimed at Israel from its 
northern border?
    Ms. Slotkin. Unfortunately, as long as the violence in Syria 
continues, we expect that Lebanon will continue to suffer from 
spillover violence and humanitarian-related pressures. Terrorist 
attacks in Lebanon are on the rise. The Lebanese Armed Forces (LAF) 
have taken a variety of measures to maintain stability in Lebanon and 
to counter the destabilizing effects of the Syrian conflict on 
Lebanon's security. The Lebanese Armed Forces' willingness to exercise 
its role in Lebanon has made it a target as well.
    Our continued engagement with and assistance to the LAF are 
extremely important at this time of increased challenges to Lebanon's 
stability. We remain concerned with Iran's destabilizing activities in 
Lebanon and its partnership with Hizballah. We view the Lebanese Armed 
Forces' emergence as the sole legitimate defense force as a critical 
component of Lebanon's long-term stability and development. The 
Lebanese Armed Forces has proved to be a reliable partner in Lebanon, 
and continuing to make it a stronger, more effective institution will 
help to ensure that Lebanon remains stable and capable of protecting 
its borders, thereby reducing the risk of attacks on Israel from 
terrorist elements that may seek to use Lebanon as a launching pad for 
violence.
    Mr. McKeon. Iran is in a position where it could break out and 
produce enough highly enriched uranium for a weapon in less than two 
months. Is the U.S. military prepared to act in such a narrow timeframe 
to respond to an Iranian breakout attempt?
    Admiral Pandolfe. DNI assesses that Iran will need up to one year 
or longer to produce a testable nuclear weapon from the point of 
decision to do so. Thus, as discussed in the hearing, we continue to 
maintain a strong military posture in the Gulf region.
    Mr. McKeon. What impact did the lack of U.S. military action in 
Syria have on Iran's view of the credibility of the U.S. threat of 
force to stop its nuclear quest?
    Admiral Pandolfe. The Director of National Intelligence (DNI) has 
assessed that Iran is trying to balance the conflicting objectives of 
improving its nuclear capabilities with avoiding severe repercussions, 
such as a military strike or sanctions. The DNI does not know if Iran 
will eventually decide to build nuclear weapons.
    Mr. McKeon. What steps are the United States taking to mitigate the 
impact of unfolding Middle East events on Israel's QME [qualitative 
military edge]?
    Admiral Pandolfe. DOD is able to mitigate the impact of unfolding 
Middle East events on Israel's QME through the sale of advanced 
technology to Israel, participation in combined training and exercises, 
and support for active missile defense efforts in Israel.
    Annual Foreign Military Financing (FMF) grants of $3.1 billion 
support Israel's QME. FMF, along with national funds and U.S. missile 
defense appropriations to Israel, represent over $18 billion in Foreign 
Military Sales and Direct Commercial Contract purchases. To maintain 
QME, the U.S. delivered the C-130J to replace Israel's aging C-130E 
fleet and has agreed to provide advanced systems such as the F-35 and 
V-22 along with attack helicopters, Patriot Air Defense Systems, and 
advanced fighter aircraft radar systems. In addition, Israel benefits 
from the $1.4 billion War Reserve Stock Allies-Israel program that 
includes Patriot missiles, bombs, and other weapons in country for use 
in a contingency.
    Many exercises offer DOD the opportunity to work with Israeli 
counterparts. These include Juniper Cobra, Austere Challenge, Reliant 
Mermaid, Noble Dina, Noble Shirley, Blue Flag and other BMD and command 
and control exercises. These exercises address emerging challenges and 
increase our combined capabilities, interoperability, and readiness.
    DOD also supports Israel's multi-layered missile and rocket 
defense. By the end of FY 2014, the United States will have provided 
over $700 million for production of Iron Dome batteries in addition to 
the $3.1 billion Israel receives in FMF. In FY 2015, DOD plans to 
provide an additional $176 million for Iron Dome.
    Mr. McKeon. Do you share Director Clapper's concern about the 
threat foreign fighters in Syria pose to the United States or our 
allies like Israel? How are we addressing this potential threat?
    Admiral Pandolfe. I share Director Clapper's concern over the 
foreign fighter threat in Syria. Some foreign fighters are joining 
units with known links to terrorist organizations. DOD continues to 
pursue a strategy of capacity-building, security assistance, and 
intelligence-sharing with our international partners to aid in 
combating violent extremist threats emanating from Syria.
    Mr. McKeon. What is the United States doing to stop the flow of 
foreign fighters to Syria?
    Admiral Pandolfe. The DOD pursues a strategy of capacity building, 
security assistance, and intelligence sharing with international 
partners to disrupt the flow of foreign fighters to Syria. Example 
capacity building programs include the Jordan Border Security Project 
to improve ground surveillance and communication and utilization of 
Section 1206 Global Train and Equip funding to improve Lebanon border 
security.
    Security assistance comes in the form of Foreign Military Financing 
to Iraq, Jordan, and Lebanon that totaled $826 million in FY 2013. In 
January, DOD expedited a $203 million Government of Iraq request to 
purchase arms and ammunition to facilitate response to extremist 
attacks throughout the country.
    Expanded intelligence sharing with Jordan, Iraq, and Turkey also 
aids DOD's strategy to address the foreign fighter flow to Syria. This 
approach involves coordination across the interagency.

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
